                              NATIONAL SCIENCE FOUNDATION
                                    4201 Wilson Boulevard
                                  ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL

MEMORANDUM

Date:             MAR 2 9 2012
To:             Mary F. Santonastasso, Director
                Division of Institution and Award Support




From:


Subject:        Audit Report No. OIG-12-1-003
                University ofNotre Dame


This memo transmits Foxx & Company's audit ofNSF Award Numbers PHY-0216783, DGE-
0504495, PHY-0715396, DMS-0905227, and DEB-0918306 awarded to the University of Notre
Dame (UND). The audit determines the allowability of NSF-funded costs claimed for the
awards from August 1, 2003 through March 31, 2011, totaling $15,292,807 in costs claimed and
$965,586 in cost share claimed for the awards.
Except for the $244,430 of questioned NSF-funded costs, the auditors determined that the costs
and cost share claimed by UND under the NSF awards appear fairly stated and are allowable,
allocable and reasonable for the NSF awards. Additionally, for NSF American Reinvestment
Recovery Act (ARRA) Awards DMS-0905227 and DEB-0918306, the auditors found that UND
had correctly segregated ARRA funding from non-ARRA funding in its accounting system, and
properly reported ARRA expenditures and jobs created in its quarterly reports.

The questioned costs consisted of:

•     $99,767 of unsupported participant support costs,
•     $19,563 ofunsupported travel costs,
•     $44,300 of unsupported and unallowable subaward costs [$9,340 for University of Chicago
      (UC) and $34,960 for Michigan State University (MSU)], and
•     $80,800 of participant support costs that were approved by NSF in UND's subaward budget,
      but not included by UND in its subawardee MSU's approved budget (action taken without
      NSF approval).
Foxx & Company noted several compliance and internal control deficiencies in financial
management practices at UND, and UND's subawardees, University of Chicago (UC) and
Michigan State University (MSU), that contributed to the questioned costs and, if not corrected,
could impact current and future NSF awards. Specifically, the auditors recommended that UND
revise its record retention and participant support procedures and fully implement its existing
policies and procedures to monitor its subawardees' claimed costs. It was also recommended
that UND require UC to implement policies and procedures to improve the timeliness of its
labor effort reporting and certifications and require UC and MSU to ensure adequate
documentation of attendance at conferences and support for travel days, for charges made on its
NSF awards.

In UND's response, dated March 12, 2012, UND stated that it revised its subrecipient
monitoring procedures and agreed to review and revise, as necessary, its record retention, travel
and participant support procedures. UND's response is described after each recommendation
and is included in Appendix A. The exhibits referred to in UND's response were too
voluminous to include in the final report, however, the entire response was provided separately
by OIG to the Division oflnstitution and Award Support.

Please coordinate with our office during the six month resolution period, as specified by OMB
Circular A-50, to develop a mutually agreeable resolution of the audit findings. Also, the
findings should not be closed until NSF determines that all recommendations have been
adequately addressed and the proposed corrective actions have been satisfactorily implemented.

We are providing copies of this memorandum to the NSF Program Directors for each of the
awards audited. The responsibility for audit resolution rests with the Division of Institution and
Award Support, Cost Analysis and Audit Resolution Branch (CAAR). Accordingly, we ask that
no action be taken concerning the report's findings without first consulting CAAR at 703-292-
8244.

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

    •   Reviewed Foxx & Company's approach and planning of the audit;
    •   Evaluated the qualifications and independence of the auditors;
    •   Monitored the progress of the audit at key points;
    •   Coordinated periodic meetings with F oxx & Company and notified NSF officials as to audit
        progress, findings and recommendations, issuance of draft report and the awardee's
        complete response to draft report;
    •   Reviewed the audit report prepared by F oxx & Company to ensure compliance with
        Government Auditing Standards; and
    •   Coordinated issuance of the audit report.




                                                 2
Foxx & Company is responsible for the attached auditor's report on the University of Notre
Dame and the conclusions expressed in the report. We do not express any opinion on the
auditor's report or the conclusions expressed therein.

We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact Jannifer Jenkins at (703) 292-4996 or
David Willems at (703) 292-4979.

Attachment

cc:    Alex Wynnyk, Branch Chief, CAAR
       C. Denise Caldwell, Program Director JINA, MPS/PHY
       Kathleen McCloud, Program Director QuarkNet, MPS/PHY
       Melur Ramasubramanian, Program Director IGERT, EHR/DGE
       Maria H. Noronha, Program Director Gromov, MPS/DMS
       Saran Twombly, Program Director LTREB, BIO/DEB




                                                3
                 University of Notre Dame

                Notre Dame, Indiana 45556

        NATIONAL SCIENCE FOUNDATION
AWARD NUMBERS PHY-0216783, DGE-0504495, PHY-0715396,
          DMS-0905227, and DEB-0918306

   FINANCIAL AUDIT OF FINANCIAL SCHEDULES AND
           INDEPENDENT AUDITOR’S REPORT
      For the Period August 01, 2003 TO March 31, 2011




                                 Foxx & Company
                                 Certified Public Accountants
                                 324 West Ninth Street, Suite 700
                                 Cincinnati, Ohio 45202
EXECUTIVE SUMMARY

The National Science Foundation (NSF) Office of Inspector General (OIG) engaged Foxx & Company
to perform an audit on $15,292,807 in costs claimed and $965,586 in cost sharing claimed as reported
on the March 31, 2011 Federal Financial Reports (FFR) and cost sharing reports submitted to NSF by
the University of Notre Dame (UND) for NSF Award Numbers PHY-0216783, DGE-0504495, PHY-
0715396, DMS-0905227 and DEB-0918306. As of March 31, 2011, UND had two hundred and four
(204) active NSF awards totaling over $98.57 million. The audit objectives included determining
whether: (1) the UND’s system of internal control is adequate to account for and safeguard NSF funds,
(2) the UND’s costs claimed are allowable and in conformity with the terms and conditions of the NSF
awards and Federal requirements, (3) UND complied with American Reinvestment and Recovery Act
(ARRA) requirements and other applicable laws, regulations, and award terms and conditions and (4)
findings in the 2006 and 2007 Office of Management and Budget (OMB) Circular A-133 Single
Audits, the 2006 NSF desk review and the 2009 NSF site review had been addressed by UND.

UND was selected for audit because of potential weaknesses in internal control over its financial and
grant administration of its NSF awards noted in OMB A-133 Single Audits and NSF Desk and Site
reviews.

Except for $244,430 (about 1.5 % of total claimed costs) in participant support, travel costs and
subcontracts costs claimed, we determined that the costs claimed by the University of Notre Dame
under NSF Award Numbers PHY-0216783, DGE-0504495, PHY-0715396, DMS-0905227 and DEB-
0918306, appear fairly stated and are allowable, allocable and reasonable for the NSF awards.
Specifically, the $244,430 questioned consisted of UND unsupported participant support costs of
$99,767; unsupported travel costs of $19,563; unallowable and unsupported subaward costs of
$44,300; and an additional $80,800 of participant support costs that were proposed in a subaward
budget (approved by NSF), but UND did not include this amount in the subaward approved budget
(action taken without NSF approval).

Additionally, our review disclosed that Notre Dame correctly separated its ARRA funding from non
ARRA funding in its accounting system and properly reported ARRA expenditures on a quarterly basis
including the computation of jobs created.

Our review of the previously identified audit recommendations from the Single Audits for FYs 2006
and 2007 revealed that the recommendations were adequately addressed. Also, the FYs 2008, 2009
and 2010 Single Audits did not have any findings. In addition, the results of the 2006 NSF desk
review and the 2009 NSF site review were adequately addressed by the University of Notre Dame.
See Appendix B of this report for details.

In addition, we noted compliance and internal control deficiencies in financial management practices at
UND, and UND’s subawardees, University of Chicago (UC) and Michigan State University (MSU),
that contributed to the questioned costs and, if not corrected, could impact current and future NSF
awards. Specifically:

   •   UND, UC, and MSU could not always provide adequate documentation to support its claimed
       costs.



                                                   i
   •   Improvements were needed for UND’s subaward monitoring program for NSF funded
       subawards. UND officials were unaware of issues noted by our review because their
       monitoring procedures did not identify these issues.
   •   The University of Chicago’s certifications of time charged to the NSF award were not approved
       for periods ranging from 143 to 227 days from the dates the time was incurred.
   •   The University of Chicago’s travel policy needs to be revised to show official work and
       conference work and conference/workshop attendance dates.

To address these compliance and internal control deficiencies, we recommend that NSF’s Director of
Institution and Award Support (DIAS) address and resolve the following recommendations made to
UND to: Provide adequate documentation to support the costs questioned or return the $244,430
questioned to NSF; establish procedures to ensure that records are maintained for all NSF awards for
at least 3 years after the final project is approved; periodically review procedures to ensure established
procedures are working as designed; always obtain approval from NSF for changes to the participant
support cost category; ensure that established subawardee monitoring procedures are followed not just
limited to reviewing Single Audits; and for all current and future awards ensure that subawardees
funded by NSF awards adhere to all federal and NSF requirements for participant support, personnel
costs, and travel incurred under the awards.

UND’s response to each finding is included in the text of the report following the auditor’s
recommendations. UND provided additional documentation which supported many of the items
questioned in the draft audit report. Our comments on UND’s response follow each of UND’s
responses. A summary of UND’s response is included in Appendix A of this report. In UND’s
response, dated March 12, 2012, UND stated that it revised its subrecipient monitoring procedures and
agreed to review and revise, as necessary, its record retention, travel and participant support
procedures. UND, the University of Chicago and Michigan State provided an enormous volume of
documentation which supported a significant amount of cost questioned in the draft report. The
University of Chicago disagreed with the findings on the timeliness of the annual time certifications
and documentation for its travel report policy. UND’s complete response could not be included in the
final report because it was too voluminous. UND’s response in its entirety was provided to the NSF
Division of Institution and Award Support.

The findings in this report should not be closed until NSF has determined that all the recommendations
have been adequately addressed and the proposed corrective actions have been satisfactorily
implemented.

For a complete discussion of the audit findings, refer to the Report on Internal Control Over Financial
Reporting and on Compliance and Other Matters Based on an Audit of Financial Schedules Performed
in Accordance with Government Auditing Standards.




                                                    ii
                                                       University of Notre Dame

                                                         TABLE OF CONTENTS

                                                                                                                                                  Page

Executive Summary: ..........................................................................................................................           i

Table of Contents: ................................................................................................................................ iii

Introduction:
   Background ......................................................................................................................................    1
   Audit Objectives, Scope and Methodology .....................................................................................                        4

Independent Auditors’ Report on Financial Schedules ................................................................                                    6

Internal Controls and Compliance:
   Report on Internal Control over Financial Reporting and on Compliance
    and Other Matters Based on an Audit of Financial Schedules Performed
     in Accordance with Government Auditing Standards ..................................................................                                8

Financial Schedules and Supplemental Information:

    Schedule A-1 - Schedule of Award Costs (Award No. PHY-0216783) ..........................................                                          35
    Schedule A-2 - Schedule of Award Costs (Award No. DGE-0504495) ..........................................                                          36
    Schedule A-3 - Schedule of Award Costs (Award No. PHY-0715396) ..........................................                                          37
    Schedule A-4 - Schedule of Award Costs (Award No. DMS-0905277) .........................................                                           38
    Schedule A-5 – Schedule of Award Costs (Award No. DEB-0918306) .........................................                                           39
    Schedule B Schedule of Questioned Costs .....................................................................................                      40
    Schedule C-1 Schedule of Costs Claimed by Michigan State University under
    NSF Award No. PHY-0216783 ......................................................................................................                   42
    Schedule C-2 Schedule of Costs Claimed by the University of Chicago under PHY-0216783 ......                                                       43
    Schedule D-1 Notes to Schedule C-1 ...............................................................................................                 44
    Schedule D-2 Notes to Schedule C-2 ..............................................................................................                  45
    Schedule E-1 Summary Schedules of Awards Audited and Audit Results .....................................                                           46
    Notes to Financial Schedules ..........................................................................................................            48


                                                                           iii
Appendices
  Attachment A – Awardee’s Comments to Report............................................................................ 50

   Attachment B – Status of Prior Review Findings ........................................................................... 73

   Attachment C – Exit Conference .................................................................................................... 74




                                                                   iv
INTRODUCTION
BACKGROUND

We were engaged by the National Science Foundation; Office of Inspector General (NSF-OIG) to
perform an audit of the funds awarded and expended under five NSF awards to the University of Notre
Dame (UND). In addition to conducting internal control and substantive testing at UND, Foxx &
Company conducted substantive testing for subawards funded by PHY-0216783 awarded to the
Michigan State University (MSU) and the University of Chicago (UC).

The University of Notre Dame (UND), founded in 1842, is an independent university located in Notre
Dame, Indiana, adjacent to the city of South Bend, Indiana. The UND is organized into the colleges of
Arts and Letters, Science, Engineering, College of Business, School of Architecture, the Law School,
the Graduate School, 10 major research institutes, more than 40 centers and special programs, and the
University Library system. As of March 31, 2011, UND had two hundred and four (204) active NSF
awards totaling over $98.57 million.

UND, MSU and UC are independent universities and are required to follow the administrative and cost
principles specified in 2 CFR 220 (formerly OMB Circular A-21) and the Uniform Administrative
Requirements for Grants and Agreements With Institutions of Higher Education 2 CFR 215 (formerly
OMB Circular A-110), respectively.

UND was selected for audit because of potential weaknesses in internal control over its financial and
grant administration of its NSF awards noted in Office of Management and Budget A-133 Single
Audits for FYs 2006 and 2007. Also, a 2006 NSF desk review noted issues with not adequately
documented expenditure approval procedures or established thresholds to require additional
management approval for large expenditures and UND had not documented policies, procedures or
other guidance to assist employees responsible for administering NSF-funded awards in identifying
and accounting for unallowable costs. A 2009 NSF site visit review noted that UND had implemented
all the recommended measures that were identified by the 2006 desk review. However, the 2009 site
visit recommended that UND develop procedures for the preparation, submission and reconciliation of
the Federal Financial Reports.

Cost categories, approved budget, and claimed costs for the five NSF awards audited were as follows:

     Grant Nos. PHY-0216783, DGE-0504495, PHY-0715396, DMS-0905227, DEB-0918306

                                Total                                        Budgeted Costs
       Cost Categories
                               Budget      PHY-0216783     DGE-0504495       PHY-0715396      DMS-0905227     DEB-0918306
    Salaries and Wages        $2,491,212     $1,588,576        $175,856           $390,998          $81,782       $254,000
    Fringe Benefits
    Equipment
    Travel                       483,142         154,464           140,000          148,178          18,000         22,500
    Participant Support        4,338,866         452,080         1,982,500        1,904,286               0              0
    Materials and Supplies       420,918          26,523           355,159           11,936           4,800         22,500
    Publication                   34,000               0            15,000            8,000           7,500          3,500
    Consultant Services          260,000               0                 0          260,000               0              0
    Sub awards                 6,725,276       6,025,876                 0          699,400               0              0
    Other Direct Costs           468,500          10,000           150,000          296,000               0         12,500
      Total Direct Costs
    Indirect Costs
      Total Costs            $18,084,100     $10,185,080      $3,144,381         $4,117,983        $186,761       $449,895
    Amendment #2              $(377,983)               0               0          (377,983)               0              0
      Total Costs            $17,706,117     $10,185,080      $3,144,381         $3,740,000        $186,761       $449,895
          Cost Sharing         $965,586        $965,586               $0                 $0              $0             $0



                                                             1
                              Total                               Claimed Costs through 3/31/2011
       Cost Categories
                            Claimed       PHY-0216783    DGE-0504495      PHY-0715396         DMS-0905227     DEB-0918306
  Salaries and Wages         $2,361,830     $1,473,641        $440,384           $337,575           $44,450        $65,780
  Fringe Benefits               396,721        261,533          19,185             95,953             7,792         12,258
  Equipment                     267,993        178,323          89,670                  0                 0              0
  Travel                        426,125        214,960         100,282            101,811             8,694            378
  Participant Support         3,521,704        398,992       1,719,644          1,403,068                 0              0
  Materials and Supplies        116,668         24,636          61,934             12,279             2,639         15,180
  Publication                    14,881         12,635           2,209                 37                 0              0
  Consultant Services           268,778        110,621           1,320            156,837                 0              0
  Sub awards                  6,424,289      6,054,861               0            369,428                 0              0
  Other Direct Costs              2,500              0               0                  0                 0          2,500
       Total Direct Costs   $13,801,489     $8,730,202      $2,434,628        $2,476,988            $63,575        $96,096
  Indirect Costs
    Total Costs
          Cost Sharing        $965,586        $965,586              $0                $0                $0             $0


Cooperative Agreement PHY-0216783 was for the Joint Institute for Nuclear Astrophysics - JINA.
The purpose of this award was to support the Joint Institute for Nuclear Astrophysics. The Institute,
which is under the guidance of UND’ Principal Investigator (PI), acts as a broad forum for a
collaborative and synergistic approach in addressing two fundamental problems posed in Nuclear
Astrophysics, The Origin of the Elements and The fate of matter at the extreme conditions of Neutron
Star Laboratories. JINA involves scientists from three universities, the University of Chicago,
Michigan State University, and the University of Notre Dame. UND was awarded $10,185,080, for
the period for August 1, 2003 to July 31, 2011, with a cost sharing requirement of $965,586.

Continuing Grant DGE-0504495 was a continuing grant for Global Theory for the Physics of the
High-Tc Cuprates. The purpose of this award is to support the establishment of a new interdisciplinary
graduate program in Global Linkages of Biology, Environment and Society (GLOBES) at the
University of Notre Dame. The program integrates research, training, and educational activities among
complementary faculty in ecology, evolution and environment, infectious disease, social science,
ethics, law, and economics. This grant was awarded to UND for the period from July 15, 2005 to June
30, 2011 in the amount of $3,144,381.

Continuing Grant PHY-0715396 was a continuing grant for QuarkNet. The purpose of this award is
to fund QuarkNet, which is a national program that partners high school science teachers and students
with particle physicists working in experiments at the scientific frontier. These experiments are
searching for answers to fundamental questions about the origin of mass, the dimensionality of
spacetime and the nature of symmetries that govern physical processes. This grant was awarded to
UND for the period from September 15, 2007 to August 31, 2011 in the amount of $4,117,983. This
award was reduced to $3,740,000 by Amendment No. 2.

ARRA Award DMS-0905227 was a 2009 American Recovery and Reinvestment Act (ARRA) award
for Gromov-Witten Invariants and Integrable Systems. This funding was to be used to study universal
equations and other properties of Gromov-Witten invariants of compact symplectic manifolds, as well
as the interaction with integrable systems. Gromov-Witten invariants are defined by the intersection
theory on moduli spaces of stable pseudo-holomorphic maps from Riemann surfaces to compact
symplectic manifolds. UND was awarded $186,761 effective July 15, 2009 through June 30, 2012.

ARRA Award DEB-0918306 was a 2009 American Recovery and Reinvestment Act (ARRA) for
LTREB Renewal: Ecosystem Structure and Function in Palouse Grasslands. The purpose of this

                                                         2
funding was to continue with the long-term experimental study of grasshoppers, their names (predators
and parasites), their food plants and nutrients for these plants in Montana Palouse grassland ecosystem.
Grasshoppers are the dominant herbivores in this ecosystem and strongly influence the ecosystem
functioning (nutrient cycling and primary production). UND was awarded $449,895 effective
September 1, 2009 through August 31, 2014.

AUDIT OBJECTIVES, SCOPE AND METHODOLOGY

AUDIT OBJECTIVES

The audit objectives include determining whether: (1) the UND’s system of internal control is adequate
to account for and safeguard NSF funds, (2) the UND’s costs claimed are allowable and in conformity
with the terms and conditions of the NSF awards and Federal requirements, and (3) UND complied
with applicable laws, regulations, and award terms and conditions. In addition, substantive testing was
performed of cost claimed under subawards to Michigan State University and the University of
Chicago funded under Award No. PHY-0216783 to determine if the costs claimed were allowable in
accordance with federal requirements.

Specific objectives of the audit were to:

   1. Determine whether UND has an adequate system of internal controls over administrating its
      NSF ARRA and non-ARRA funds to account for and ensure compliance with applicable OMB
      Circular and NSF award requirements. The analysis of the internal controls includes the five
      (5) interrelated components of internal controls, including the control environment, risk
      assessment, control activities, information and communication, and monitoring pursuant to
      SAS 109 through SAS 117. However, an opinion on the internal control is not part of this
      engagement.

   2. Identify and report instances of noncompliance with laws, regulations, and the provisions of the
      award agreements and weaknesses in UND’s internal controls over compliance and financial
      reporting that could have a direct and material effect on the Schedule of Award Costs. In
      addition, the ability of UND to properly administer, account for, and manage its NSF ARRA
      and non-ARRA awards would be evaluated.

   3. Determine and report on whether UND adequately monitored their sub-awards.

   4. Follow-up on recommendations identified in UND’s FYs 2006 and 2007 OMB Circular A-133
      audit reports, NSF’s 2006 Desk Review and the 2009 NSF Site Visit Report to determine if the
      report issues and recommendations were satisfactorily addressed and implemented.

   5. Determine and report on whether UND’s Schedules of Award Costs present fairly, in all
      material respects, the costs claimed on the Federal Cash Transaction Reports/Federal Financial
      Reports and cost sharing in conformity with NSF-OIG Financial Audit Guide and the terms and
      conditions of the NSF award.

   6. Determine whether UND properly accounted for and segregated its ARRA funded awards from
      its non-ARRA funded awards in its accounting system.


                                                 3
   7. Determine whether UND provided accurate and timely ARRA quarterly reporting including
      accurate reporting of jobs created under ARRA for NSF Awards No. DMS-0905227 and DEB-
      0918306.

SCOPE AND METHODOLOGY

We performed inquiries and walkthroughs of the expenditure, revenue, payroll, and
reporting/drawdown cycles at the University of Notre Dame in regard to the five NSF awards in the
scope of our audit. The purpose of our inquiries and walkthroughs was to obtain an understanding of
the internal controls over these cycles, to assess the control strengths and weaknesses which were in
place, and to devise and execute tests of the controls. Our tests were designed not only to address the
controls in place but also to address the audit objectives. In conducting the survey and internal control
assessments, we interviewed key personnel of each organization related to the operations for specific
audit areas as deemed necessary. We reviewed and documented the organizations procedures and
policies, and tested significant controls. In addition, we performed substantive testing of the costs
claimed by Michigan State University and the University of Chicago under subawards funded by NSF
Award No. PHY-0216783.

We conducted our audit in accordance with auditing standards generally accepted in the United States
of America, the standards applicable to financial audits contained in Government Auditing Standards
(2007 Revision) issued by the Comptroller General of the United States, and the guidance provided in
the National Science Foundation OIG Audit Guide (August 2007), as applicable. Foxx & Company
also complied with the most current AICPA financial audit standards, including the Statements on
Auditing Standards (SAS) 62, 99, and 102 through 117.

These standards and the NSF OIG Audit Guide require that we plan and perform the audit to obtain
reasonable assurance about whether amounts claimed to NSF as presented in the Schedules of Award
Costs, (Schedules A-1 through A-5) are free of material misstatements. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the Schedules of Award Costs. An
audit also includes assessing the accounting principles used and the significant estimates made by
UND, as well as evaluating the overall financial schedule presentation. We believe that our audit
provides a reasonable basis for our opinion.




                                                  4
AUDIT REPORT ON FINANCIAL STATEMENTS
                 AND
     SUPPLEMENTAL INFORMATION
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


         INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES

We have audited the costs claimed by the University of Notre Dame (UND) to the National
Science Foundation (NSF) on the Federal Financial Reports (FFRs) for the NSF awards listed
below. In addition, we audited the amount of cost share claimed on the NSF awards, as
applicable. The FFRs, as presented in the Schedules of Award Costs (Schedules A-1 through A-
5), are the responsibility of the University of Notre Dame’s (UND) management. Our
responsibility is to express an opinion on the Schedules of Award Costs (Schedules A-1 through
A-5) based on our audit.

           Award Number                Award Period                Audit Period

            PHY-0216783              08/01/03 - 07/31/11        08/01/03 - 03/31/11
            DGE-0504495              07/15/05 - 06/30/11        07/15/05 - 03/31/11
            PHY-0715396              09/15/07 - 08/31/11        09/15/07 - 03/31/11
            DMS-0905227              07/15/09 - 06/30/12        07/15/09 - 03/31/11
            DEB-0918306              09/01/09 - 08/31/14        09/01/09 - 03/31/11

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States (2007 revision), and the
guidance provided in the National Science Foundation OIG Audit Guide (August 2007), as
applicable. Those standards and the National Science Foundation OIG Audit Guide, require that
we plan and perform the audit to obtain reasonable assurance about whether the amounts claimed
to NSF as presented in the Schedules of Award Costs (Schedules A-1 to A-5) are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Schedules of Award Costs (Schedules A-1 through A-5). An audit also
includes assessing the accounting principles used and the significant estimates made by UND’s
management, as well as evaluating the overall financial schedule presentation. We believe our
audit provides a reasonable basis for our opinion.

The Schedule of Questioned Costs (Schedule B) explains $244,430 (1.5%) of total claimed costs
that we questioned as to their allowability under the NSF award agreements. These questioned
costs include inadequately supported or unallowable participant, travel, and subaward costs.
Questioned costs are (1) costs for which there is documentation that the recorded costs were

                                             5
expended in violation of the laws, regulations or specific award conditions, (2) costs that require
additional support by the awardee, or (3) costs that require interpretation of allowability by
NSF’s Division of Institution and Award Support. The final determination as to whether such
costs are allowable will be made by NSF. The ultimate outcome of this determination cannot
presently be determined. Accordingly, no adjustment has been made to costs claimed for any
potential disallowance by NSF.

In our opinion, except for the $244,430 of questioned NSF-funded costs, the Schedules of Award
Costs (Schedules A-1 through A-5) referred to above present fairly, in all material respects, the
costs claimed on the FFRs and cost sharing claimed for the period of August 01, 2003 through
March 31, 2011, in conformity with the provisions of the NSF-OIG Audit Guide, federal grant
requirements, the National Science Foundation Grant Policy Manual, terms and conditions of
the NSF awards and on the basis of accounting described in the Notes to the Financial
Schedules, which is a comprehensive basis of accounting other than generally accepted
accounting principles. These schedules are not intended to be a complete presentation of
financial position of UND in conformity with accounting principles generally accepted in the
United States of America.

In accordance with Government Auditing Standards, and guidance provided in the National
Science Foundation OIG Audit Guide, we have also issued a report dated February 10, 2012, on
our consideration of UND’s internal control over financial reporting and our tests of UND’s
compliance with certain provisions of laws, regulations, grant agreements, and NSF award terms
and conditions and other matters. The purpose of that report is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that testing,
and not to provide an opinion on the internal control over financial reporting or on compliance.
That report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be considered in assessing the results of our audit.

Our audit was conducted for the purpose of forming an opinion on the Schedules of Award Costs
(Schedules A-1 to A-5). The accompanying schedules B, C-1 and C-2, D-1 and D-2, and E-1 are
presented for purposes of additional analysis, as required by the National Science Foundation
OIG Audit Guide. Such information has been subjected to the auditing procedures applied in the
audit of the Schedules of Award Costs and, in our opinion, is fairly stated, in all material
respects, in relation to the Schedules of Award Costs.

This report is intended solely for the information and use of the University of Notre Dame’s
Management and subawardees at the discretion of Notre Dame’s management, the National
Science Foundation, the University of Notre Dame’s cognizant federal audit agency, the Office
of Management and Budget, and the Congress of the United States and is not intended to be, and
should not be used, by anyone other than these specified parties.

Foxx & Company
Cincinnati, Ohio
February 10, 2012


                                               6
INTERNAL CONTROLS AND
     COMPLIANCE
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


     REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING AND
       ON COMPLIANCE AND OTHER MATTERS BASED ON AN AUDIT OF
        FINANCIAL SCHEDULES PERFORMED IN ACCORDANCE WITH
                  GOVERNMENT AUDITING STANDARDS

We have audited the costs claimed as presented in the Schedules of Award Costs (Schedules A-1
through A-5), which summarize financial reports submitted by the University of Notre Dame
(UND) to the National Science Foundation (NSF) and claimed cost share, as applicable for the
awards and periods listed below and have issued our report thereon dated February 10, 2012.

          Award Number                Award Period                 Audit Period

           PHY-0216783             08/01/03 - 07/31/11          08/01/03 - 03/31/11
           DGE-0504495             07/15/05 - 06/30/11          07/15/05 - 03/31/11
           PHY-0715396             09/15/07 - 08/31/11          09/15/07 - 03/31/11
           DMS-0905227             07/15/09 - 06/30/12          07/15/09 - 03/31/11
           DEB-0918306             09/01/09 - 08/31/14          09/01/09 - 03/31/11

We conducted our audit of the Schedules of Award Costs as presented in Schedules A-1 through
A-5 in accordance with auditing standards generally accepted in the United States of America,
the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States (2007 revision), and the guidance provided in
the National Science Foundation Audit Guide (August 2007), as applicable.

INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of the Schedules of Award Costs (Schedules A-1 through
A-5) for the period August 01, 2003 to March 31, 2011, we considered UND’s internal control
over financial reporting as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the financial schedules, but not for the purpose of expressing an
opinion on the effectiveness of UND’s internal control over financial reporting. Accordingly,
we do not express an opinion on the effectiveness of UND’s internal control over financial
reporting.




                                              7
Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and was not designed to identify all deficiencies in internal
control over financial reporting that might be significant deficiencies or material weaknesses and
therefore, there can be no assurance that all deficiencies, significant deficiencies, or material
weaknesses have been identified. However, as described below in the Findings and
Recommendations, we identified certain deficiencies in internal control over financial reporting
that we consider to be material weaknesses and other deficiencies that we consider to be
significant deficiencies.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of UND’s financial schedules will not be prevented, or
detected and corrected on a timely basis. We consider the deficiencies described in Finding Nos.
1 through 3 to be material weaknesses. A significant deficiency is a deficiency, or a combination
of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. We consider the deficiencies
described in Finding Nos. 4, 5 and 6 to be significant deficiencies.

COMPLIANCE AND OTHER MATTERS

As part of obtaining reasonable assurance about whether UND’s financial schedules are free of
material misstatement, we performed tests of UND’s compliance with certain provisions of
applicable laws, regulations, and NSF award terms and conditions, noncompliance with which
could have a direct and material effect on the determination of financial schedule amounts.
However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion. The results of our tests of compliance
disclosed instances of noncompliance that are required to be reported under Government
Auditing Standards and the National Science Foundation OIG Audit Guide and are described in
Finding Nos. 1 through 6 in the Findings and Recommendations below.

A summary of UND’s responses to each of the findings identified in our audit are described
below after each recommendation and is included in its entirety as Attachment A. We did not
audit UND’s response and accordingly, we express no opinion on it.

FINDINGS AND RECOMMENDATIONS

Finding 1 – Incurred Costs not Supported by Adequate Documentation and Lack of
Approval for Unmet Participant Support Costs--University of Notre Dame

The University of Notre Dame could not provide support for a large amount of costs claimed
under NSF Awards Nos. PHY-0216783, PHY-0715396 and DGE-0504495. We found that
UND could not provide adequate documentation supporting travel costs, participant support
costs and subaward costs claimed under the NSF awards totaling $200,130. Although the
University of Notre Dame had detailed procedures for maintaining records supporting costs
incurred on sponsored programs, the University of Notre Dame could not readily provide
accounting documentation to support all costs claimed tested. In addition, its two subawardees
under Award No. PHY-0216783 could not support $44,300 of costs claimed. (See Findings 2
                                                8
and 3 for details) As a result, a total of $244,430 of travel, participant support, and subaward
costs have been questioned.

According to 2 CFR 215.21 (formerly OMB Circular A-110), recipients’ financial management
systems shall provide for: (1) accurate, current and complete disclosure of the financial results of
each federally-sponsored project, (2) records that identify adequately the source and application
of funds including records containing information pertaining to Federal awards, authorizations,
obligations, unobligated balances, asset, outlays income and interest, and, (3) effective control
over and accountability for all funds. In addition, 2 CFR 215.20(b) states that, “recipients’
financial management systems shall provide for accounting records including cost accounting
records that are supported by source documentation”. According to 2 CFR 220, C, to be
allowable for a federal grant, cost must be reasonable and allocable to federal awards. In
addition, 2 CFR 220 requires costs incurred and claimed under federal awards to be adequately
supported. Also, NSF General Grant Conditions (GC-1) in effect at the time of the award states,
Paragraph 7 a. states “Participant support costs are direct costs for items such as stipends or
subsistence allowance, travel allowances and registration fees paid to or on behalf of participants
or trainees (but not employees) in connection with meetings, conferences, symposia or training
projects.” Paragraph 7 b. states: “Funds provided for participant support may not be used by
grantees for other categories of expense without the specific prior written approval of the
cognizant NSF Program Officer”. Finally, 2 CFR 215.53(b) and NSF Grant Administration
Regulations require NSF awardees to maintain records, supporting documents, statistical records
and other records pertinent to a grant for at least three years from submission of the final project
report.

The University of Notre Dame could not provide supporting documentation such as expense
reports, invoices, and participant lists (including sign-in sheets) for participant support and travel
costs for a portion of the transactions selected for audit. According to the University of Notre
Dame officials, supporting documentation may have been destroyed in accordance with the
University of Notre Dame’s record retention policy. Other documentation could not be located or
was maintained by the Principal Investigator and not readily available. In addition, $80,800 of
participant support costs were proposed in a subaward budget (approved by NSF), but UND did
not include this amount in the subaward approved budget (action taken without NSF approval).
The following is an explanation of the questioned costs by cost category:

UND Travel
Travel cost transactions selected for audit of $19,563 claimed on NSF awards are questioned
because documentation was either destroyed or missing to support the travel costs claimed. As a
result, there was no assurance that travel costs claimed were reasonable, allocable, and allowable
under the NSF awards. Therefore, we questioned $19,563 of travel costs charged to NSF Award
Nos. PHY-0216783, PHY-0715396, and DGE-0504495 for lack of documentation, as follows:

                                  Amount       Amount
         Award        Category                                       Reason for Question Cost
                                  Claimed     Questioned
                                                               Lack of documentation.
      PHY-0216783       Travel     $214,960           $4,839
                                                               UND unable to provide documentation.
                                                               Lack of documentation. UND unable to
      DGE-0504495       Travel     $100,282           $8,955
                                                               provide documentation.
                                                               Lack of documentation.
      PHY-0715396       Travel     $101,811           $5,769
                                                               UND unable to provide documentation.
     Total                         $417,053       $19,563

                                                  9
UND Participant Support
Notre Dame officials could not provide adequate documentation supporting the transactions
selected for participant support costs claimed of $99,767. As a result there was no assurance that
participant support costs claimed were reasonable, allocable, or allowable for the NSF awards.
Therefore, we questioned $99,767 of participant support costs charged to NSF Award Nos. PHY-
0216783 and PHY-0715396 for lack of documentation, as follows:

                                              Amount       Amount                 Reason for
     Award       University     Category
                                              Claimed     Questioned          Questioning Cost
                                                                        Lack of documentation. UND
                               Participant
 PHY-0216783     Notre Dame                   $ 398,992   $     2,096   unable to provide
                              Support Costs
                                                                        documentation.
                                                                        Lack of documentation. UND
                               Participant
 PHY-0715396     Notre Dame                   1,403,068        97,671   unable to provide
                              Support Costs
                                                                        documentation.
 Total                                                        $99,767

Unmet Subaward Participant Support
The University of Notre Dame had a subagreement with Michigan State University (MSU) as a
subawardee under Award No. PHY-0216783. Although MSU’s budgeted participant support
cost category, approved by NSF in the original award was for $686,000, the subaward that UND
provided to MSU only had a budget for participant support of $605,200. UND did not obtain
approval from NSF to reduce the amount of participant support on the approved subaward.
Accordingly, the difference of $80,800 was questioned because UND did not request advance
approval from the NSF program office to reduce the participant support amount on the
subawardee as required by GC-1 Paragraph 7 b. which states: “Funds provided for participant
support may not be used by grantees for other categories of expense without the specific prior
written approval of the cognizant NSF Program Officer”. Such requests must be submitted
electronically via the NSF FastLane system. UND officials stated that because the university
was a member of the Federal Demonstration Partnership it had the power to approve all changes
to the subagreement with MSU. However, it is our position that since the $80,800 was not
included in the MSU subagreement, UND did not meet NSF’s requirement to obtain prior
approval from NSF before entering into the subagreement with MSU that reduced NSF-approved
subaward participant support costs by $80,800. As a result, we questioned $80,800 that NSF
approved for MSU subaward participant support costs, but were used for other categories of
expense without prior NSF approval.

The University of Notre Dame had written policies and procedures for accounting for sponsored
programs. These procedures were detailed and included procedures that if correctly followed
would have provided for adequate documentation to support the costs incurred under the NSF
awards.

The University of Notre Dame’s inability to maintain documentation supporting a large portion
of its NSF awards represents an internal control weakness. All federally funded grantees should
maintain adequate accounting documentation to support costs claimed under federal awards.
Had the University of Notre Dame’s policies and procedures been followed by its personnel the
documentation requested should have been available. Without such documentation, there was no
assurance that the amounts claimed under the NSF funded awards were reasonable, allowable, or
actually incurred.


                                                 10
Recommendation No. 1:
We recommend that the NSF Director of the Division of Institution and Award Support address
and resolve the following recommendation made to the University of Notre Dame:

   a. develop procedures to retain documentation supporting award costs maintained by other
      departments within the university for at least three years after the close of federal awards,

   b. perform periodic reviews of its policies and procedures to ensure that procedures are
      working as designed including documenting attendance at participant support activities
      and ensuring that travel incurred on federal awards is documented,

   c. establish and implement policies and procedures to ensure that university officials obtain
      prior approval from NSF before using funds budgeted for participant support on other
      cost categories, and

   d. provide documentation to support the questioned travel, participant support and subaward
      costs or refund the $200,130 questioned to NSF.

Awardee Comments
For recommendations 1a and 1b, the University generally concurred and will take action toward
concentrating on the areas identified during the audit. For recommendation 1c, the University
believes it obtained approval from NSF prior to moving the participant support costs for the
subagreement. In addition, the University believes it did not need prior approval since it
participates in the Federal Demonstration Partnership and has the authority to move subaward
amounts budgeted for participant support to other cost categories without NSF approval. We
assume that the University believes the $80,800 should be accepted. For Recommendation No.
1d, the University provided a schedule of the remaining questioned $162,260
($19,563+$142,697) by travel, participant support and subcontract costs as questioned in the
draft report. As shown in Appendix A, the University provided various explanations of the
documentation that was or was not available to support the questioned cost. For the travel cost
questioned the University provided explanations such as the documentation no longer exists, the
receipts are no longer legible, itemized receipts from the employee incurring the expense were
not available, documentation was requested from UND sources but the people were out on a
medical emergency, and $6,975 for travel charged to DGE-0504495 was removed from the
claim. Also, there is a statement from the PI explaining why $5,768.88 of travel was transferred
from travel under PHY-0216783 to the participant support cost category on PHY-0715396. For
the questioned participant support the University provided different Exhibits to answer amounts
questioned during the audit (See Appendix A). In addition, the University stated that for several
of the amounts documentation was not available because the documentation had been destroyed
($1,789) itemized receipts were not provided by individual employees ($187), individuals that
were requested to provide documentation had a medical emergency ($22,420), an explanation in
Exhibit 7 of why there are not sign in sheets for this type of participant support ($65,110) and an
amount that was charged to the project through a clerical error ($120) which the University
stated was removed from the claim. The details supporting the amounts are included in Notre
Dame’s written comments in Appendix A of this report.

Auditor’s Response
The action proposed by the University for Recommendation 1a and 1b should, if properly
implemented, resolve the record retention issue. In regard to Recommendation 1c for the
                                                11
$80,800 moved from subawardee participant support to other cost categories by UND without
NSF approval, we recommend that NSF determine if the University’s actions pertaining to the
participant support is in accordance with the Federal Demonstration Partnership.

In regard to the University’s response to recommendation 1d, we have the following comments
(these amounts are included in the same order as UND’s comments in Appendix A)

     Cost                          Amount            Amount
                 Award No.                                      Reason for Auditor Action
   Category                       Questioned         Accepted
                                                                UND stated that the
                                                                documentation was destroyed in
                                                                accordance with its record
     Travel      PHY-0216783       $3,059.54            $0
                                                                retention policy. The $3,059.43
                                                                remains questioned in the final
                                                                report.
                                                                UND stated that the receipts
                                                                could not be read. The $1,625.30
     Travel      PHY-0216783       $1,625.30            $0
                                                                remains questioned in the final
                                                                report.
                                                                UND stated that the
                                                                documentation was destroyed in
                                                                accordance with its record
     Travel      PHY-0216783        $ 32.33             $0
                                                                retention policy. The $32.33
                                                                remains questioned in the final
                                                                report.
                                                                UND stated that the
                                                                documentation was destroyed in
                                                                accordance with its record
     Travel      PHY-0216783        $ 122.00            $0
                                                                retention policy. The $122.00
                                                                will remain questioned in the final
                                                                report.
                                                                UND stated it removed the
                                                                amount from claim after our audit
                                                                period. Because the amount was
     Travel      DGE-0504495       $6,975.00            $0
                                                                in the claim as of the end of the
                                                                audit period. The $6,975 remains
                                                                questioned in the final report.
                                                                UND stated that it could not
                                                                provide an individual receipt from
     Travel      DGE-0504495       $ 1,744.59           $0      the person incurring the cost. The
                                                                $1,744.59 will remain questioned
                                                                in the final report.
                                                                Same as above. The $235
     Travel      DGE-0504495        $ 235.00            $0      remains questioned in the final
                                                                report.
                                                                UND provided $8,521.62 of
                                                                travel documentation for various
                                                                trips to seminars and meetings
                                                                (UND Exh. 2). There was also an
                                                                explanation about QuarkNet
     Travel      PHY-0715396       $5,768.88           $0       program and the I2U2 program
                                                                being related or the same. Since
                                                                no time was charged by these two
                                                                individuals to either the PHY-
                                                                0216783 or the PHY-0715396
                                                                awards during these trips, the

                                                12
                                                                    $5,768.88 should not be direct
                                                                    charges of these awards.
                                                                    Therefore, the $5,768.88 remains
                                                                    questioned in the final report.
  Total Questioned                     $19,562.64        $0

We have not accepted any of the travel expenses questioned in the draft report based on the
University’s written comments.         Although travel expenses may have been incurred,
documentation to support that these travel amounts benefitted the NSF awards was not provided.

In regard to the $142,697.31 of participant support questioned on Awards No. PHY-0715396 and
PHY-0216783 in the draft report, following is our analysis of the University’s comments:

     Amount               Amount
                                                         Reason for Auditor’s Action
    Questioned            Accepted
                                          UND provided a sign in sheet for an event in Hawaii in Sep. 2009
                                          along with documentation (UND Exh. 3) for $110.00 for an
     $1,042.40             $110.00        airline flight. We have accepted the $110 and questioned the
                                          remaining $932.40.
                                          UND provided $1,040 of payment info on UND Exh. 4.
     $1,040.00             $640.00        However, only two attendees receiving $320 each sent an email as
                                          evidence of attendance. Accordingly, we only accepted $640.
                                          UND provided on UND Exh. 5, a summary of each week in the
                                          six week summer course, a list of the teachers and students along
    $24,480.00            $24,480.00      with a picture of the class, and a summary of when the students
                                          and teachers were absent. We accepted the documentation in lieu
                                          of sign in sheets or attendance records.
                                          The University provided a summary of two individuals’ time
                                          cards for the period 6/21-8/22/10 (Exh. 6) for stipends paid for
     $8,900.00              $8,900        work performed at the Fermi Lab.         We have accepted this
                                          documentation and removed the $8,900 from the final report.

      $500.00                 $0                                                              unable to
                                          provide the support.
                                          The University provided an explanation (UND Exh. 7) of why
                                          there were not attendance records at the participant support
     $4,782.80                $0          activities. Also, an explanation of the national program.
                                          However, because no documentation was provided that supported
                                          the attendance, the $4,782.80 remains questioned.
                                          Same as above.         No documentation provided to support
     $7,840.00                $0          attendance. The $7,840 remains questioned.
                                          The University provided timesheets (Exh. 10) that adequately
     $8,800.00              $8,800        supported the two teachers that worked on Quark-Net at Fermi-
                                          Lab. Accordingly, the $8,800 is accepted.

     $7,840.00                $0                                                                 unable to
                                          provide the support.
                                          The University provided an explanation (Exhibit 7) of why there
                                          were not attendance records at the participant support activities.
    $19,342.61                $0          Also, an explanation of the national program. However, because
                                          no documentation was provided that supported the attendance, the
                                          $19,342.61 remains questioned.
                                          Same as above.       No documentation provided to support
    $21,944.82                $0          attendance. The $21,944.82 remains questioned.
    $11,200.00                $0          Same as above.       No documentation provided to support


                                              13
     Amount                 Amount
                                                           Reason for Auditor’s Action
    Questioned              Accepted
                                             attendance. The $11,200 remains questioned.
                                             The University provided cost information (Exhibit 9) totaling
                                             $16,892.44 for the $4,416.37 questioned.          The $4,416.57
      $4,416.37                 $0           represents the amount over the budget of $12,000. No support of
                                             how this related to participant support for the award was not
                                             provided. Therefore, the $4,416.37 remains questioned.

      $12,080.00                $0                                                                  unable to
                                             provide the support. The $12,080 remains questioned.

      $2,000.00                 $0                                                                   unable to
                                             provide the support. The $2,000 remains questioned.
   (PHY-0216783)                             Amount removed from UND’s claim. Because it was in claim as
                                $0
      $120.00                                of 03/31/11, it remains questioned.
                                             The University could not provide an individual receipt from the
(PHY-0216783) $38.75            $0
                                             person incurring the cost. The $38.75 will remain questioned.
 (PHY-0216783) $50.25           $0           Same as above. The $50.25 will remain questioned.
 (PHY-0216783) $98.14           $0           Same as above. The $98.14 will remain questioned.
    (PHY-0216783)                            The documentation was destroyed in accordance with its record
                                $0
       $1,239.00                             retention policy. The $1,239 remains questioned.
(PHY-0216783) $550.00           $0           The documentation was destroyed. The $550 remains questioned.
                                             UND referenced it Exhibit 3 for this amount. It was already
       $110.00                  $0
                                             accepted above. The $110 remains questioned.
                                             This expense is for travel to the QuarkNet Advisory board
                                             meeting for an individual. UND provided a report on the Advisory
                                             board and copy of a slide presentation (Exh. 9). However,
      $4,282.17                 $0
                                             minutes of the meeting were never taken, so there is not a record
                                             of the meeting or the individual’s attendance. Therefore, the
                                             $4,282.17 remains questioned.
$142,697.31                  $42,930

As shown above, we have accepted an additional $42,930 of claimed participant support for
Award Nos. PHY-0216783 and PHY-0715396 which has been removed from the final report.
The remaining $19,562.64 of travel and $99,767 of participant support ($2,096 for PHY-
0216783 and $97,671 for PHY-0715396) along with the $80,800 of participant support moved
from the MSU subcontract for a total of $180,567 of participant support will remain questioned
in the final report.

Finding 2 – Lack of Documentation to Support Incurred Costs at the University of Chicago

The University of Chicago could not provide adequate support for $9,340 of costs claimed under
the University of Notre Dame subaward funded by NSF Award No. PHY-0216783. The
University could not provide documentation such as attendance records, sign in sheets or other
documentation to support attendance at participant support events. However, as part of the
University’s written comments, the University was able to provide other support that we
determined was sufficient for us to accept most of the claimed costs. As a result, we questioned
$9,340 of participant support costs claimed.

According to 2 CFR 215.21 (formerly OMB Circular A-110), recipients’ financial management
systems shall provide for: (1) accurate, current and complete disclosure of the financial results of
each federally-sponsored project, (2) records that identify adequately the source and application

                                                 14
of funds including records containing information pertaining to Federal awards, authorizations,
obligations, unobligated balances, asset, outlays income and interest, and, (3) effective control
over and accountability for all funds. Also, 2 CFR 215.20(b) states that, “recipients’ financial
management systems shall provide for accounting records including cost accounting records that
are supported by source documentation”. In addition, according to 2 CFR 220, to be allowable
for a federal grant, cost must be reasonable and allocable to federal awards and adequately
supported. Also, NSF General Grant Conditions (GC-1) in effect at the time of the award states,
Paragraph 7 a. states “Participant support costs are direct costs for items such as stipends or
subsistence allowance, travel allowances and registration fees paid to or on behalf of participants
or trainees (but not employees) in connection with meetings, conferences, symposia or training
projects.” Paragraph 7 b. states: “Funds provided for participant support may not be used by
grantees for other categories of expense without the specific prior written approval of the
cognizant NSF Program Officer”

We found that the University of Chicago could not provide adequate supporting documentation
for proof of payment of participant lists (including sign-in sheets) and itemized invoices or
approval to use participant support funds in other cost categories. For support for some of the
claimed participant support activities we were provided a list of presentations and lectures, bills
from Argonne (a U.S. Department of Energy facility managed by an affiliate of the University)
was provided that listed various items that were individually billed such as lodging, effort,
computer rental, food services, driving and rigging, IPD Media, non-purchase order/SC Services
(Stipends) and Food Services-Off site. For effort we would expect a time sheet or certification.
For lodging there should be hotel bills with individual’s names that would be tied to attendance
sheets or some other support to show that the individuals attended the event. The same level of
support for the food services, who was served, etc., that we could trace back to attendance or
sign in sheets. The documentation the University of Chicago could not provide during the audit
included participant lists (including sign in sheets), detail hotel invoices showing participants,
invoice details of reception refreshments and dinners, actual source documents for charges made
by Argonne and Cal Tech. However, as part of its written comments to the draft report the
University was able to provide additional documentation that resolved a large portion of the
original questioned costs. The following table presents the events for which costs remain
questioned and the reasons for the remaining questioned costs. A discussion of the support
provided and further explanation of the questioned costs are in the notes below.

                                                           Amount
Ref.        Payee                 Purpose                            Reasons for Questioned Costs
                                                           Claimed
                                                                     There was not a breakdown of the
                       Support for the “Nuclear
                                                                     $5,000 to determine what Cal Tech
 a         Cal Tech    Astrophysics:1957-2007: Beyond       $5,000
                                                                     used the $5,000 for or if was expended
                       the First 50 Years” at Cal Tech
                                                                     on allowable costs.
                                                                     Stipends claimed that were not paid,
                       Mass Modeling School
 b.        Argonne                                          $1,340   unallowable costs claimed, and
                       conference 5/8-16/2007
                                                                     stipends paid to employees
                       “Nuclear Astrophysics of the                  Stipends not paid and stipends paid to
 c.        Argonne                                          $3,000
                       Cosmos 2008” 07/22-26/2008                    employees.
                       TOTAL                               $9,340

      a. Beyond the First 50 Years” at Cal Tech -$5,000 questioned
         The support for the $5,000 was a list of seminars with one seminar circled, a list of
         individuals that were invited, and a letter dated December 13, 2011 saying that the $5,000

                                                      15
       was for the event. Also, the invoice stated the expense was for the JINA conference. In
       addition, the University provided a letter dated December 2011 stating that the
       expenditure was for the JINA conference However, there was no other documentation
       supporting what the $5,000 consisted of or how it was used by Cal Tech. Because there
       was not a breakdown of what was included in the $5,000 amount, there is no assurance
       that the $5,000 was expended on allowable costs or activities. Therefore, the $5,000 is
       questioned as unsupported.

   b. Mass Modeling School -                questioned
      The University did not have time and attendance or sign in sheets for this event.
      However, the University was able to provide as part of its written comments sufficient
      documentation in order for a determination that the majority of the costs claimed for this
      event were acceptable. We have questioned                    in stipends claimed for two “no
      shows”                         in stipend payments to three individuals from Michigan State
      and Notre Dame in accordance with NSF GC-1 that we were able to identify. Paragraph
      7 a of GC-1 states that employees are not to be paid stipends. Since Notre Dame and
      Michigan State are in collaboration with the University of Chicago for these participant
      support activities, we have questioned the           as payments to employees. Specifically,
      for the stipends of           , we were provided a memo with a list of individuals with a line
      for the individual to initial when a cash stipend of           in $20 bills was received. The
      first list we were provided had no initials. The second list had initials but showed that 2
      persons had not collected              each and three individuals that received stipends were
      employees of Michigan State and Notre Dame. In addition, we identified $339.51 in
      unallowable costs from the University’s response. Even though the University returned
      the         for the “no shows” and the              for the unallowable costs, these amounts
      were included in the University’s claim at the audit cut off point. Therefore, the costs
      will remain questioned in this report. Accordingly, we have questioned a total of
                       ) for stipends and unallowable costs.

   c. Nuclear Astrophysics of the Cosmos 2008 -           Questioned
      Although the University did not provide or maintain time and attendance or sign in sheets
      for this event, the University did provide other supporting documentation that we deemed
      sufficient evidence for us to accept the costs with the exception of the $600 not paid as
      stipends to “no shows” and the               (12 employees x            in stipends paid to
      individuals from Notre Dame, Michigan State and the University of Chicago. According
      to NSF GC-1, Paragraph 7 a. employees are not to be paid stipends. Since Notre Dame
      and Michigan State are in collaboration with the University of Chicago for these
      participant support activities, we consider individuals from these institutions employees.
      Even though the University returned the             for the “no shows” this amount was
      included in the University’s claim at the audit cut off point, it is still questioned in this
      report. Accordingly, we have questioned            in stipends.

This condition occurred in part because the University of Chicago did not ask for support
documentation including attendance or sign in sheets from Argonne and Notre Dame for
participant support, but instead accepted the bills and paid the amount requested. Because the
University of Chicago did not require time and attendance reporting, sign in sheets or some other
form of documentation to support participation at events nor could we identify any evidence that
the University of Chicago reviewed documentation for participant support activities performed
by Argonne and Notre Dame prior to our audit, we do not consider the participant procedures
                                                16
adequate. As a result, when the audit team requested support documentation it was not readily
available, even though NSF GC-1 requires participant support to be accounted for separately.
The University of Chicago officials stated that there were no regulations requiring attendance
records or sign in sheets for participant support events. Although there are no specific
requirements for attendance records, we could not assure ourselves by the information originally
provided who actually attended the participant support events and that the documentation
provided adequately supported the costs claimed. We could not determine if the cost claimed
was eligible or allowable for the NSF funded subaward. However, as part of the draft report
process the University was able to gather sufficient documentation to support $84,372 of the
$93,712 questioned in the draft report. Therefore, the remaining $9,340 has been questioned

Recommendation No. 2:

We recommend that the NSF Director of the Division of Institution and Award Support address
and resolve the following recommendation made to the University of Notre Dame that requires
the University of Chicago:

   a. To provide adequate documentation to support the questioned participant support costs or
      return the $9,340 questioned to Notre Dame for return to NSF.

   b. For current and future NSF awards and subawards, the University of Chicago should
      establish procedures for accounting for participant support costs to ensure that adequate
      supporting documentation such as sign in sheets or attendance records are maintained for
      all participant support events funded by NSF awards. In addition, original source
      documentation for other costs associated with participant support events should be
      maintained, be readily available, accounted for separately and identifiable with the
      events.

Awardee Comments
The University of Chicago stated: “We strongly maintain that the documentation provided for
the questioned costs in Finding No. 2, both the official documentation and the supplemental
documentation gathered during the audit, fully support the reasonableness, allocability and
allowability of those costs. Further, we maintain that federal regulations do not require “sign in”
sheets to support conference costs. The disallowance of those costs because of the absence of
such sheets is unreasonable, particularly since we provided ample evidence of attendance.”
The University further stated that it provided the auditors the official documentation the
University required for costs selected for review. Documentation primarily included vendor
invoices and the University payment authorization from. Vendor invoices included references to
associated work orders and/ or descriptions of services and goods provided. The Principal
Investigator or his designee requested and approved all invoice payments. The Principal
Investigator was in a position to determine if invoiced expenses were appropriate in light of the
services provided and if they were in support of the NSF award’s project scope. In addition to
the official transaction documentation, the University also provided supplemental vendor
documentation to the auditors as requested. The additional documentation is described below in
the individual questioned costs comments. The University’s documentation meets any
reasonable interpretation of documentation required by OMB Circulars A-21 and A-110 and the
NSF Grants policy Statement to support the reasonableness, allocability and allowability of the
questioned costs. Two decades of A-133 Audits and more than a dozen NSF award monitoring


                                                17
reviews and desk audits prove that invoices, purchase orders, work orders and the University
payment authorization forms are adequate documentation for sponsored award expenditures.

The University provided a detailed list along with additional documentation for each of the items
questioned in the draft report as follows:

   a. Cal Tech $5,000 Payment to Support “Nuclear Astrophysics: 1957-2007: Beyond the
      First 50 years at Cal Tech
      The University stated it provided adequate documentation supporting the $5,000
      including a list of conference registrants provided by the Notre Dame JINA
      administrator. The University provided the Cal Tech invoice for $5,000 dated June 19,
      2007, an email dated July 27, 2007 from the University’s award administrator to the
      Payment Services Department explaining that the invoice was for support of the Cal Tech
      JINA Conference. The University further stated that the invoice clearly stated it was for
      participant support of the Cal Tech JINA Conference. The University also stated it
      provided a memorandum from the PI dated December 13, 2011, stating that the Prime
      (we assume the University of Notre Dame) requested the University to support the Cal
      Tech conference.

   b. Argonne National Laboratory, Mass Modeling School Conference, Questioned
      The University stated that in February 2007, Argonne prepared a Work Project
      Authorization to provide conference services as follows: a) Student lodging, b) Lecturer
      support, c) Student support (including meals), d) Materials and supplies (including
      handouts), and e) Conference coordinator services. The University was presented with an
      invoice for $27,317.77 which referenced the work order. The University said that invoice
      payments are authorized by the PI or his designee. The invoice and its payment
      authorization became the official documentation for the transaction. The University
      stated that it provided additional documentation that included vendor employee time
      records, hotel bills with the names of individuals for whom room expense was charged
      and documents that could reasonably be substituted for “sign in” sheets.” The University
      included a schedule of the $27,318 questioned with an explanation for each item (See
      Appendix A)

   c. Notre Dame: Frontiers Conference held August 19-21, 2007, $18,509 Questioned
      The University stated that Notre Dame presented an invoice for $18,509 dated November
      6, 2007. This invoice was for the University’s designated share of expenses associated
      with the above-referenced conference. Invoice payments are authorized by the PI or his
      designee. The University provided a table with separate amounts with an explanation of
      each expense (See Appendix A for details)

   d. Argonne, “Nuclear Astrophysics of the Cosmos 2008” July 22-26, 2008 Amount
      Questioned $39,135
      The University stated that in February 2007, Argonne prepared a Work Project
      Authorization to provide conference services as follows: a) Student lodging, b) Lecturer
      support, c) Student support (including meals), d) Materials and supplies (including

                                               18
        handouts), e) Conference coordinator services, and f) transportation to the Nuclear
        Astrophysics of the Cosmos symposium. Argonne submitted three invoices for payment.
        Invoice payments are authorized by the PI or his designee. The invoices and their
        payment authorization became the official documentation record for the expense. The
        University provided a listing of expenses for the three payments to Argonne of $21,891,
        $15,423, and $1,821. This consisted of a listing of seven items totaling $21,891
        representing Invoice No. 0454C1139 dated September 8, 2008, Invoice No. 0454C1139-
        02, dated November 21, 2008 in the amount of $15,423 stating that the amount was for
        housing 29 individuals at Sodexho’s hotel at Argonne, and Invoice No. 0454C1139-03 in
        the amount of $14,722 with a list of 5 items and explanations for each. (See Appendix A
        for details)

   e.                 payment for the JINA Advisory Committee Meeting on 03/24/06 Amount
        Questioned $3,750
        The University stated that the $3,750 was for a deposit for a block of rooms housing out-
        of-town advisory committee members scheduled to attend the March 2006 meeting. The
        $3,750 deposit was requirement under a hotel contract. The official documentation for
        the expense provided to the auditors was the hotel contract and the university payment
        authorization. Additional documentation provided to the auditors included the final hotel
        invoice for the actual nights stayed, a list of individuals scheduled to attend the meeting,
        and a hotel provided list of individual reservations that tied to the number of night
        referenced on the invoice.

Auditor’s Response

Foxx has responded to each of the above comments received from the University of Chicago in
the same order as listed above:

   a. Cal Tech JINA Conference, $5,000 questioned- Although there is sufficient evidence that
      the $5,000 payment was made to Cal Tech based on the documentation provided, there is
      no support to determine that the $5,000 was utilized by Cal Tech for allowable costs or
      activities. It is a fixed amount without a break down of what the $5,000 consisted of.
      Therefore, the $5,000 remains questioned in the final report.

   b. Argonne National Laboratory, Mass Modeling School Conference, $27,318
      Although time and attendance or sign in sheets were not provided there was enough
      evidence provided to accept the costs. However, we continue to question the           not
      paid out to “no shows”. We have also questioned          representing stipend payments to
      three individuals from Michigan State and Notre Dame in accordance with NSF GC-1
      that we were able to identify. Paragraph 7 a of GC-1 states that employees are not to be
      paid stipends. Since Notre Dame and Michigan State are in collaboration with the
      University of Chicago for these participant support activities, we have questioned the
      $600 as payments to employees. In addition, we have questioned the               that the
      University stated were determined to be unallowable. Even though the University
      returned the       for the “no shows” and the          for the unallowable costs, these
      amounts were included in the University’s claim at the audit cut off point. For future
      events, sign in sheets or time and attendance records would be better documentation.

                                                 19
   c. Notre Dame: Frontiers Conference held August 19-21, 2007, $18,509 Questioned
      Although time and attendance or sign in sheets were not provided there was enough
      evidence provided to accept the costs. For future events, sign in sheets or time and
      attendance records would be better documentation.

   d. Argonne, “Nuclear Astrophysics of the Cosmos 2008” July 22-26, 2008 Amount
      Questioned $39,135
      Although time and attendance or sign in sheets were not provided we determined that
      there was sufficient evidence provided to accept the costs. However, we continue to
      question the        not paid out to “no shows”. Even though the University returned the
            for the “no shows” this amount was included in the University’s claim at the audit
      cut off point. In addition, we have questioned the          paid to 12 individuals working
      for the University of Chicago, Michigan State University, and Notre Dame that were paid
      the       stipend. According to NSF’s General Grant Conditions (GC-1) employees of
      the institutions should not paid from participant support. Since this event is in
      conjunction will all three universities we have questioned stipends paid to employees of
      these institutions. For future events, sign in sheets or time and attendance records would
      be better documentation. Also, the University needs to better monitor participant support
      events held at Argonne more closely to ensure all costs claimed are better supported.

   e.                 payment for the JINA Advisory Committee Meeting on 03/24/06 Amount
        Questioned $3,750
        Although time and attendance or sign in sheets for this event were not provided there was
        other evidence provided that we determined was sufficient for us to accept the costs. For
        future events, sign in sheets or time and attendance records would be better
        documentation.

        In summary we have accepted $84,372 of the $93,712 questioned in the draft report. The
        remaining $9,340 remains questioned in the final report.

Finding 3 – Lack of Documentation and Unallowable Costs for Participant Support and
Travel Costs Claimed at Michigan State University

Michigan State University could not support a portion of costs claimed under the University of
Notre Dame subcontract under NSF Award No. PHY-0216783. We found that Michigan State
University claimed $34,960 of unsupported participant support and travel costs. Michigan State
University did not maintain detailed written policies and procedures related to participant support
costs nor could it provide adequate documentation to support costs claimed during the audit.
However, during the draft report process, Michigan State University was able to provide support
for the majority of the costs questioned in the draft report. As a result, a total of $34,960 claimed
under the UND subagreement has been questioned.

NSF Award and Administration Guide §V(B).8.b states that, “to help defray the costs of personal
maintenance while participating in a conference or training activity, participants may be paid a
stipend, per diem or subsistence allowance, based on the type and duration of the activity, as
outlined in the pertinent program solicitation and in the grant.” It further states that, “such
allowances must be reasonable, in conformance with the usual policy of the grantee organization
and limited to the days of attendance at the conference plus the actual travel time required to

                                                 20
reach the conference location by the most direct route available.” In addition, NSF Grant Policy
Manual 618.1 (b) states, “Funds provided for participant support may not be used by grantees for
other categories of expense without the specific prior written approval of the cognizant NSF
Program Officer. Also, 2 CFR 220, Appendix A, J3 states that the costs of alcoholic beverages
are unallowable.

According to 2 CFR 215.20(b) recipients’ financial management systems shall provide for
accounting records including cost accounting records that are supported by source
documentation. Additionally, recipients are required to maintain written procedures for
determining the reasonableness, allocability and allowability of costs in accordance with
provisions of the applicable Federal costs principles and the terms and conditions of the award.

We originally questioned $198,020 of participant support and travel costs claimed by Michigan
State University under NSF Award No. PHY-0216783 because of lack of documentation.
However, because of documentation provided by Michigan State University during the draft
report process which supported much of the questioned costs, we accepted $163,060 of the
$198,020 questioned. The remaining $34,960 that is still questioned consists of the following:

                                                                            Amount
                               Cost Category
                                                                           Questioned
         a. Unsupported Participant support                                      $13,814
         b. Equipment purchased with Participant Support funds                    19,510
         c. Participant support costs charged to Travel Costs                      1,636
                   Total                                                         $34.960

a. Lack of Documentation for Participant Support Costs
Michigan State University could not provide adequate support for a material amount of
participant cost claimed under the federal award during the audit. The supporting documentation
not provided included participant lists (including sign-in sheets), invoices, cancelled checks, and
inter-fund payments. This condition existed in part because Michigan State University did not
maintain written policies and procedures for participant support. However, as part of the draft
report process the University was able to provide sufficient documentation for the acceptance of
$133,966 of the $147,780 questioned. As a result, we questioned unsupported participant
support costs of $13,814. The $13,814 questioned was for travel expense transactions included
in participant support of $11,364 and $2,450 donated to Notre Dame’s JINA summer movie
series.
    1. The travel expenses of $11,364 were for an individual from outside the U.S. to come to
        Lansing, Michigan for periods of time in 2007 and 2008. The only documentation to
        support this as a eligible participant support charges was a short memo dated January 3,
        2012, stating that the individual had been a long-term and short-term visitor with JINA at
        MSU on a number of occasions. According to the memo during this visit, 7/15/07 to
        9/30/07, “we carried out a detailed analysis of the kinematics of stellar populations in the
        Milky way galaxy, with the purpose of understanding the origin and evolution of its
        various components.” The memo went on to say that it was a large project that required a
        two month visit. In addition, a list of publications was provided that this person’s name
        was associated with along with other individuals. The publications ranged from 2008 to
        2010. This is the only justification for the stays. Following are the charges:


                                                21
     Amount          Check          MSU
                                                            Description of Support
    Questioned        No.          Support
   $3,141.22       IDT120404     Exhibit A-8     A hotel bill for a                              from
                                                 7/15/07 to 9/30/07.         As discussed above, a
                                                 justification was provided for the project, along
                                                 with a list of publications. Proof of payment was
                                                 provided. However, as discussed below, the person
                                                 left for Italy on 8/14/07 and did not return until
                                                 9/1/07 even though the hotel room was being
                                                 charged to participant support while the person was
                                                 apparently not there.
   $3,112.31       TVL101807     Exhibit A-9     MSU provided a rental car receipt for $1,942 and
                                                 meal per diem for 30 days in the amount of $1,170
                                                 for the same individual. The period was 9/1/07 to
                                                 9/30/07. There was also an airline ticket attached
                                                 to the documentation for a trip to Lansing, MI and
                                                 return to Italy arriving in Lansing on 7/15/07 and
                                                 returning to Italy on 8/14/07. The Airline ticket of
                                                 $1,689.77 was not charged on this transaction but
                                                 may have been charged to participant support on
                                                 another transaction we did not include in our
                                                 sample. In the resolution process NSF should
                                                 ensure that if the airline ticket amount was charged
                                                 to the subaward, adequate documentation
                                                 supporting the charge as beneficial to the subaward
                                                 should be provided.
   $2,947.75       TVL071408     Exhibit A-10    MSU provided an expense report for a meal
                                                 allowance from 5/2/08 to 06/09/08 for $1,521 and a
                                                 rental car and taxi for $1,426.75 for the same
                                                 period for the same individual discussed above.
                                                 No justification was provided.
   $2,163.00       IDT235671     Exhibit A-15    MSU provided a hotel bill for the period 5/03/08 to
                                                 06/08/08 for the same individual listed above. The
                                                 only justification was the list of publications and
                                                 the short memo.
   $11,364.28                                    Total Amount Questioned

  The $11,364 has been questioned because the justification of a memo over 3 years after
  the fact and a list of publications that could have been done anywhere is not sufficient
  support for these charges to participant support under the award. There is not sufficient
  evidence that the $11,364 benefitted the NSF funded subaward. Furthermore, it appears
  that the University may have paid for an airline ticket to Italy in the middle of this
  person’s stay at MSU and charged to participant support. We recommend that during the
  audit resolution process, NSF determine whether or not the cost of the airline ticket was
  charged to the award, and it was, the purpose of the trip benefitted the subaward.

2. The $2,450 questioned was for a donation to the Cinema and Science Outreach Project at
   Notre Dame. MSU provided a list of 14 different showings at $5 per showing for 35
   tickets for the Notre Dame JINA film festival. The movies were for the most part science
   fiction movies such as “Blade Runner”, “Star Trek: First Contact”, “2001: A Space

                                           22
       Odyssey”, “Bride of Frankenstein”, “Fantastic Voyage” and “Close Encounters”. The
       tickets were to be given to students participating in the Research Experience for
       Undergraduates programs being held at Notre Dame. Although MSU provided a
       payment voucher, a cancelled check and a description of the JINA film series at Notre
       Dame, there was no documentation provided such as a list of individuals that the tickets
       were provided. Because evidence was not provided that the tickets were used by
       undergraduate students as stated or by anyone, the $2,450 is questioned


b. Purchase of equipment with Participant Support Funds without prior NSF approval
Michigan State University purchased items of equipment to construct a museum exhibit. The
value of the components for the exhibit charged to the subaward was $16,895. The remaining
amount of $2,615 was for 100 copies of the proceedings of a workshop. Because the equipment
charged to the award was for one item, we consider the entire $16,895 as one amount which
meets the equipment threshold. Accordingly, we question the $16,895 as equipment with funds
budgeted specifically for participant support costs and the costs charged to participant support
without prior approval from the NSF Program Officer. Therefore, the $16,895 is questioned. In
regard to the $2,615 expended on the 100 copies of the proceeding on the workshop entitled
“Reaction Mechanisms for Rare Isotope Beams” we were not provided with any support as why
this benefitted the NSF funded subaward. Accordingly, we questioned the $16,895 and the
$2,615 for a total of $19,510, as unsupported.

c. Travel costs unsupported
We found that Michigan State University could not provide adequate supporting documentation
for some of the lodging, proof of payments to travel agents, and travel authorizations for costs
claimed under the NSF funded subagreement during the audit. Michigan State University had
written policies and procedures for accounting for sponsored programs. These procedures were
detailed and included procedures that if correctly followed would have provided for adequate
documentation to support the costs incurred under the NSF awards. However, Michigan State
University could not provide during the audit the necessary supporting documentation as
required by 2 CFR 215. According to NSF Grant Administration Regulations and 2 CFR
215.53(b), NSF awardees are required to maintain records, supporting documents, statistical
records and other records pertinent to a grant for at least three years from submission of the final
project report. In addition, 2 CFR 220 requires costs incurred and claimed under federal awards
to be adequately supported. During the draft report process Michigan State was able to provide
documentation that supported $28,123 of the $29,759 questioned in the draft report. The $1,636
questioned amount remaining is for the payment of rooms for volunteers at a participant support
event. These costs do not represent direct travel costs of the subaward because the costs were
incurred for volunteers at a participant support event. Accordingly, the $1,636 is questioned.

Recommendation No. 3

We recommend that the NSF Director of the Division of Institution and Award Support address
and resolve the following recommendation made to the University of Notre Dame that requires
Michigan State University to:

   a. establish and implement policies and procedures to ensure that charges for participant
      support are supported with adequate documentation such as attendance records or “sign
      in” in accordance with applicable NSF and federal requirements,
                                                23
   b. adequately support travel costs charged to NSF funded awards, and

   c. Either provide adequate documentation to support the questioned costs, or refund the
      $34,960 questioned to Notre Dame for return to NSF.


Awardee Comments
Michigan State stated in a letter to Notre Dame (See Appendix A) that it believed that reasonable
documentation had been provided to Foxx & Company for all items listed in the draft audit
report. It went on to say that MSU had a long and successful history of working with NSF and
Notre Dame, and believed that the items listed in the draft report did in fact benefit the project
and are therefore, appropriately charged to the project. In regard to Recommendation No. 3 d &
3e, MSU provided an enormous amount of documentation which they believed supported the
$198,020 questioned in the draft report. Because of the voluminous size of the material provided
by MSU (It was contained on a CD disk) it has not been included in the final report but has been
reviewed and considered. It can be obtained from the National Science Foundation, Office of
Inspector General. We will insert a summary of MSU’s comments in the same order as the audit
report.

   a. Lack of Documentation for Participant Support Costs
      MSU provided the following schedule of participant support costs questioned in the audit
      totaling $147,780.37 as follows:

         Amount          Check           MSU
                                                                Description of Support
        Questioned        No.           Support
       $15,098.20      469714         Exhibit A-1     A direct payment voucher paying hotel bill at
                                                      Mission Point Resort for 10th Symposium on
                                                      Nuclei in the Cosmos,
       $7,200.00       TVL050307 Exhibit A-2          A cash advance request for $8,025 for per
                                                      diems for attendees for the JINA Methods for
                                                      Nuclear Reaction from 4/9-22/07, a list of the
                                                      attendees, a travel voucher for the actual
                                                      amount of $7,200, and a refund check for
                                                      $825.
       $9,474.68       419092         Exhibit A-3     MSU provided a hotel bill with individual
                                                      names for the JINA Shell Model workshop,
                                                      with a list of people’s emails, and a
                                                      description of the workshop.
       $41,309.96      469714         Exhibit A-4     A direct payment voucher paying hotel bill at
                                                      Mission Point Resort for 10th Symposium on
                                                      Nuclei in the Cosmos
       $23,685.14      IDT005414      Exhibit A-5     A direct payment voucher, a detailed hotel bill
                                                      for outside participants for 12 nights, and a
                                                      picture of some of the participants in the
                                                      event.
       $22,949.59      IDT015050      Exhibit A-6     MSU provided an estimate of the cost of the
                                                      work shop, an agenda of the Frontiers 2005
                                                      event, a list of presenters, and pictures of some
                                                      of the attendees and proof of payment.

                                               24
     Amount         Check          MSU
                                                          Description of Support
    Questioned       No.          Support
   $3,392.55      449294        Exhibit A-7     MSU provided copy of hotel bill for
                                                participants,    individual     lodging    bills,
                                                workshop agenda, list of participants and a
                                                picture of some of the participants and proof
                                                of payment.
   $3,141.22      IDT120404     Exhibit A-8     MSU provided a hotel bill for a visiting
                                                professor to work on project. The hotel bill
                                                was from 7/15/07 to 9/30/07.            Also a
                                                justification was provided for the project,
                                                along with a list of publications.
   $3,112.31      TVL101807 Exhibit A-9         MSU provided a rental car and airline
                                                transportation bills for the above visiting
                                                professor to come to Lansing MI. Also, proof
                                                of payment
   $2,947.75      TVL071408 Exhibit A-10        MSU provided an expense report for the same
                                                individual, a signed travel advance form for
                                                meals, and a rental car receipt.
   $2,754.00      465811        Exhibit A-11    MSU provided a payment voucher, a list of
                                                individuals that registered for the JINA
                                                summer research seminar and permission
                                                sheets from student parents.
   $2,450.00      562221        Exhibit A-12    MSU provided a payment voucher, a cancelled
                                                check a description of the JINA film series at
                                                Notre Dame, and a list of 14 different
                                                showings at $5 per showing for 35 tickets.
   $1,953.96      IDT038694     Exhibit A-13    MSU provided a bill from the MSU Union for
                                                a banquet in connection with the JINA Shell
                                                Model Workshop
   $2,191.86      TVL122905 Exhibit A-14        A travel expense breakdown, a travel advance
                                                form and an airline ticket was provided for an
                                                individual coming from Brazil
   $2,163.00      IDT235671     Exhibit A-15    MSU provided a hotel bill for about a month
                                                for an individual from Italy. See Exhibit A-10
   $1,956.15      419460        Exhibit A-16    MSU provided individual hotel bills for 5
                                                individuals, a list of applicants for the JINA
                                                Shell Workshop and a description of the
                                                workshop.
   $2,000.00      TVL082808 Exhibit A-17        MSU provided a signed cash advance note
                                                proof of purchase of an airline ticket for an
                                                individual coming from Brazil.
   $147,780.37                                  Total Questioned

b. Purchase of equipment with Participant Support Funds without prior NSF approval
   MSU provided invoices totaling $16,895 for various items of equipment plus an invoice
   for 100 copies of the proceedings from the workshop on Reaction Mechanisms for Rare
   Isotope Beams for $2,615. According to MSU the items of equipment were to develop a
   museum exhibit, quality visuals of JINA science for public outreach. The equipment
   purchased and charged to participant support was to be used with other material from
   other cooperating sources to construct the exhibit. According to MSU the intention was

                                         25
      to provide the visuals to be used at planetariums (including those at JINA sites like ND
      and MSU) and other museums to promote JINA science to the public. Four of the five
      invoices were for various items of equipment to construct these visuals.

c. Unallowable costs claimed as part of Participant Support Costs
   MSU provided an email dated 12/19/11 from the MSU facility stating that no alcohol was
   served at the event. According to the facility it mistakenly labeled beer, wine, plastic, bar
   accompaniments, plastic ware, soft drinks and bartender as cups and supplies for the soda
   and water. However, an invoice dated 02/24/06 from an outside vendor showed that
   $175.39 of beer and wine was served at the function. MSU stated that this invoice was
   not charged to the NSF funded subaward.

d. Early arrivals and late departures at conferences and workshop
   MSU stated that the individuals needed additional time before and after the events were
   from out of the country. The University stated that these individuals collaborated with
   JINA scientists, arriving on a Saturday meant lower airfares, and without a Saturday stay
   European participants would be prevented from coming to the event.

e. Unsupported travel costs
   MSU provided detailed information about each of the individual transaction questioned
   during the audit as follows:


 MSU
             Cost     Document    Transaction   Transaction   Questioned
Exhibit                                                                            Documentation provided
           Category    Number      Amount          Date        Amount
  No.
E.2        Travel     CHK469714      6,503.51   10/20/2008      1,636.00   MSU provided documentation about
                                                                           volunteers that worked at the 10th
                                                                           Symposium on Mackinac Island. The
                                                                           documentation included hours worked,
                                                                           tasks performed, etc. The $1,636 was for
                                                                           the rooms for the volunteers that was
                                                                           charged to the direct travel category.
E.3        Travel     DIR175338      3,000.30    8/20/2007      3,000.30   MSU provided signed expense report and
                                                                           proof of payment to employee.
E.4        Travel     DIR121373      2,077.29    8/16/2004      2,077.29   MSU provided signed expense report and
                                                                           proof of payment to employee.
E.5        Travel     JVE000038      1,978.92    5/28/2008      1,978.92   MSU provided proof that airline ticket for
                                                                           an employee was purchased and paid for.
E.6        Travel     JVE000038      2,263.47    9/27/2007      2,263.47   MSU provided proof that airline ticket for
                                                                           an employee was purchased and paid for.
E.7        Travel     TVL071207      1,907.99    7/12/2007      1,907.99   MSU provided signed expense report and
                                                                           proof of payment to employee.
E.8        Travel     JVE000038      2,227.98    6/28/2007      2,227.98   MSU provided proof that airline ticket for
                                                                           an employee was purchased and paid for.
E.9        Travel     JVE000038      2,198.27    6/28/2007      2,198.27   MSU provided proof that airline ticket for
                                                                           an employee was purchased and paid for.
E.10       Travel     DIR156385      1,824.57    9/29/2006      1,824.57   MSU provided signed expense report and
                                                                           proof of payment to employee.
E.11       Travel     DIR153605      4,736.08    8/2/2006       4,736.08   MSU provided signed expense report and
                                                                           proof of payment to employee.
E.12       Travel     JVE000038      1,980.35    4/25/2006      1,980.35   MSU provided proof that airline ticket for
                                                                           an employee was purchased and paid for.
E.13       Travel     JVE000038      1,924.58    3/29/2006      1,924.58   MSU provided proof that airline ticket for
                                                                           an employee was purchased and paid for.
E.14       Travel     JVE000038      2,003.08   10/28/2004      2,003.08   MSU provided proof that airline ticket for
                                                                           an employee was purchased and paid for
                                                     Total:   $29,758.88




                                                     26
Auditor’s Response

Following is Foxx & Company’s evaluation of MSU’s comments and our evaluation of the data
in the same order as above:

   a. Lack of Documentation for Participant Support Costs
      Following is Foxx & Company’s analysis and comment on each of the participant
      support items:

        Amount        Amount
                                            Reason for Auditor’s Action
       Questioned     Accepted
                                     Although time and attendance or sign in sheets
                                     were not provided there was enough evidence
                                     provided including the picture of the class to accept
      $15,098.20        $15,098.20   the costs. For future events, sign in sheets or time
                                     and attendance records would be better
                                     documentation.

                                     MSU provided sufficient evidence to support the
                                     costs charged to participant support. Therefore, the
      $7,200               $7,200
                                     $7,200 will be accepted in the final report..

                                     Although time and attendance or sign in sheets
                                     were not provided there was enough evidence
      $9,474.68          $9,474.68   provided to accept the costs. For future events,
                                     sign in sheets or time and attendance records would
                                     be better documentation.

                                     Although time and attendance or sign in sheets
                                     were not provided there was enough evidence
                                     provided including the picture of the class to accept
      $41,309.96        $41,309.96   the costs. For future events, sign in sheets or time
                                     and attendance records would be better
                                     documentation.

                                     Although time and attendance or sign in sheets
                                     were not provided there was enough evidence
                                     provided including the picture of the class to accept
      $23,685.14        $23,685.14   the costs. For future events, sign in sheets or time
                                     and attendance records would be better
                                     documentation.

                                     Although time and attendance or sign in sheets
                                     were not provided there was enough evidence
                                     provided including the picture of the class to accept
      $22,949.59        $22,949.59   the costs. For future events, sign in sheets or time
                                     and attendance records would be better
                                     documentation.

                                     Although time and attendance or sign in sheets
                                     were not provided there was enough evidence
      $3,392.53          $3,392.53   provided including the picture of the class to accept
                                     the costs. For future events, sign in sheets or time
                                     and attendance records would be better

                                                27
 Amount        Amount
                                    Reason for Auditor’s Action
Questioned     Accepted
                             documentation.

                             A hotel bill was provided for the period 07/15/07 to
                             9/30/07. The only justification that was provided
                             was a short memo and a list of publications from
                             2008 to 2010. In addition, this individual traveled
                             to Italy from 8/14 to 9/1/07 even though the hotel
                             room was apparently charged while the individual
   $3,141.22           $0    was out of the country. We have not accepted the
                             $3,141.22 because we do not believe the
                             justification for the long stay was sufficient. Also,
                             the individual was not using the hotel room for
                             about 2 weeks of the time. Accordingly, we have
                             not accepted the $3,141.22 as participant support.

                             This expense for rental car and meal per diem from
                             9/1/07 to 9/30/07 is for the same individual for a
                             long term visit to MSU. As discussed above this
   $3,112.31           $0    person’s activities were not linked to a specific
                             participant support events and the justification did
                             not support such a long stay. also

                             This expense is for the same individual as above
                             for a travel advance for meals, and a rental car
   $2,947.75           $0    receipt from 5/2/08 to 6/9/08. The costs are
                             questioned as participant support for the same
                             reason as above.

                             Although time and attendance or sign in sheets
                             were not provided there was enough evidence
                             provided to accept the costs. For future events,
   $2,754.00     $2,754.00
                             sign in sheets or time and attendance records would
                             be better documentation.

                             Although MSU provided a payment voucher, a
                             cancelled check a description of the JINA film
                             series at Notre Dame, and a list of 14 different
   $2,450.00           $0    showings at $5 per showing for 35 tickets there
                             was no documentation provided that the tickets
                             were used by undergraduate students as stated or
                             by anyone. Therefore the costs remain questioned.

                             Although time and attendance or sign in sheets
                             were not provided there was enough evidence
                             provided to accept the costs. For future events,
   $1,953.96     $1,953.96
                             sign in sheets or time and attendance records would
                             be better documentation.

                             MSU provided sufficient documentation to support
                             the cost claimed. Accordingly, we have accepted
   $2,191.86     $2,191.96
                             the $2,191.96 in the final report.

                             This expense is for a hotel bill from 5/3/08-
                             6/08/08, for the same individual mentioned above
   $2,163.00           $0
                             that was at MSU for an extended period of time in
                             2007. The justification does not support such a

                                        28
     Amount          Amount
                                          Reason for Auditor’s Action
    Questioned       Accepted
                                   long stay and expense. Therefore, the $2,163 is
                                   questioned as participant support.


                                   Although time and attendance or sign in sheets
                                   were not provided there was enough evidence
                                   provided to accept the costs. For future events,
        $1,956.15      $1,956.15
                                   sign in sheets or time and attendance records would
                                   be better documentation.

                                   MSU provided sufficient documentation to support
                                   the cost claimed. Accordingly, we have accepted
        $2,000.00      $2,000.00
                                   the $2,000 in the final report.

   $147,780.37      $133,966.09

   As a result of our review, we have accepted $133,966 of the $147,780 questioned in the
   draft report based on the additional documentation provided by MSU in its written
   comments to the draft report. The remaining $13,814 remains questioned in the final
   report.

b. Purchase of equipment with Participant Support Funds without prior NSF approval
   MSU provided documentation that showed that $16,895 of the $19,510 was equipment
   related to building a museum exhibit. It consisted of 2 projectors at $4,190, and 16
   Detector Packages purchased for $12,705 in 2004, 2005, 2006 and 2007. We do not know
   what the total cost of the exhibit because MSU stated it was being constructed in
   cooperation with other universities. Because the items purchased were part of building
   the same component, the exhibit, the $16,895 exceeds the $5,000 threshold for
   equipment. Therefore, the $16,895 will remain questioned in the final report. The
   $2,615 charged for 100 copies is also questioned because there was no explanation
   provided for how this document was used or benefited the NSF funded subaward.
   Accordingly, the $19,510 remains questioned in the final report.

c. Unallowable costs claimed as part of Participant Support Costs
   Although MSU provided an email that stated that there was no alcohol served at a
   participant support event, another document showed that alcohol had in fact been
   provided by an outside vendor for the event. Because of the small amount of the charge
   and the fact that an outside vendor did provide alcohol which MSU stated it did not
   charge to the subaward, the $255 has been accepted in the final report.

d. Early arrivals and late departures at conferences and workshop
   MSU provided specific reasons for the extra days before or after the conferences for each
   of the individuals coming from Europe for the conference. Therefore, the $716 has been
   accepted in the final report.

e. Unsupported travel costs
   We have accepted $28,122.88 of the $29,758.88 questioned in the draft report based on
   the additional documentation provided by MSU in its written comments. However, we

                                              29
       have not accepted the $1,636 charged for the volunteers’ room accommodations at the
       participant support event. This amount is not a valid charge to the travel cost category
       because it was incurred in support of a participant support event not a direct cost of travel
       for the subaward.


Finding No. 4 – UND’s Monitoring of Subawards Needs Improvements

Improvements are needed to UND’s NSF funded subaward monitoring program. Our audit
revealed problems at both the University of Chicago and Michigan State University for costs
incurred under subawards for NSF Award No. PHY-0216783. These findings included the lack
of documentation to support participant support costs at both institutions, undocumented travel
costs, untimely approval of time charges, and charging of unallowable costs, to the NSF funded
project which were not identified by Notre Dame’s subaward monitoring program.

The monitoring of subawards is required by 2 CFR 215.51 (formerly OMB Circular A-110) and
OMB Circular A-133. According to 2 CFR 215.51 Recipients are responsible for managing and
monitoring each project, program, subaward, function or activity supported by the award.
Recipients shall monitor subawards to ensure sub-recipients have met the audit requirements as
delineated in 2 CFR 215.26. OMB Circular A-133, Section .400(d)(3) requires recipients of
federal awards to monitor the activities of subawardees as necessary to ensure that Federal
awards are used for authorized purposes in compliance with laws, regulations, and the provisions
of contracts or grant agreements and that performance goals are achieved.

Notre Dame did have procedures for monitoring subrecipents which were quite extensive and in
accordance with federal requirements. However, the only evidence we could find pertaining to
monitoring the Michigan State and University of Chicago subawards under Award No. PHY-
026783 were letters sent to each institution asking about issues identified in Single Audit reports.
We were not provided with any support for other monitoring procedures as prescribed in UND’s
monitoring policies such as requests for support of costs claimed for selected cost categories or
on-site visits to review costs incurred. However, as shown by our audit, there were instances of
non compliance with federal requirements at both institutions. Had Notre Dame been more
proactive in monitoring these subawards as prescribed by UND’s subrecipient monitoring
procedures, such as reviewing selected original documentation, i.e. time and attendance sheets at
participant support events, travel expense reports, etc., the issues noted by our audit may have
been identified and corrected prior to the completion of the subawards.

Recommendation No. 4

We recommend that the NSF Director of the Division of Institution and Award Support address
and resolve the following recommendation made to the University of Notre Dame that, for
current and future NSF awards, UND fully implement its existing procedures for its subawardee
monitoring to ensure that all subawardees are complying with federal requirements for all NSF
funded subawards.

Awardee’s Comments
The University stated the following: Based on a comprehensive review of our existing policies
and procedures performed prior to the NSF audit late in 2010 related to sub-recipient monitoring,
the University began implementing as of July 1, 2011, additional subrecipient monitoring steps
                                                30
to ensure that costs incurred on funds passed to other entities are allowable, allocable and
reasonable. In addition to requesting A-133 audit reports from all sub-recipients we have
initiated the following processes:

       a. Completing a formal risk-assessment for all new sub-award agreements
       b. Completion of a risk assessment for all awards and increments where activity
          occurred for the prior fiscal year
       c. Audits of selected transactions
       d. Additional focus on high-risk cost categories

The University went on to say “We believe that by fully implementing these processes we will
reduce the risk of unallowable costs on all sub-awards and be in compliance with the federal
requirements surrounding sub-recipient monitoring.”

Auditor’s Response
The University’s sub-recipient monitoring steps listed in its comments, if implemented properly,
should resolve the intent of the recommendation.

Finding No. 5 – Untimeliness of Effort Certifications at the University of Chicago

The University of Chicago’s (subgrantee) policy requires the Payroll Department to generate and
distribute Annual Certification Statements to departments approximately 90 days after the close
of the fiscal year. However, the university had not established a turnaround requirement for
when the Annual Certification Statements were due back to the Payroll Department.

According to 2 CFR 220, Cost Principles for Educational Institutions, requires that labor costs
charged to Federal awards must reasonably reflect the actual labor effort contributed by the
employee to meet the objectives of the award. While the university can initially charge Federal
awards based on budgeted, planned, or assigned work activity, university officials are required to
subsequently confirm that the labor effort costs charged to an award reasonably represent the
actual labor effort. In addition, 2 CFR 220 requires that the distribution of salaries and wages of
professorial and professional staff to be certified annually by the employee, principal
investigator, or responsible officials using suitable means of verification that the effort was
performed. Although Federal requirements do not specify when an effort report should be
completed, university officials should provide the after-the-fact confirmation as close to the end
of the effort reporting period as possible to ensure its reliability.

Additionally, OMB Circular A-110, Uniform Administrative Requirement for Grant and
Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
Organizations, requires nonfederal entities receiving federal awards to establish and maintain
internal controls designed to reasonably ensure compliance with Federal laws, regulations, and
program compliance requirements.

During our audit of payroll transactions, we noted that, for all payroll expenditures tested, effort
certifications were signed well after the effort reporting period. The certification dates ranged
from 143 to 227 days after the end of the effort reporting period. The following table
summarizes the number of days after the effort reporting period it took university officials to
approve Annual Certification Statements,


                                                 31
                              Days After Effort        Number of
                              Reporting Period        Effort Reports
                                   1 to 90                   0
                                 121 to 150                 11
                                 151 to 180                 11
                                 181 to 210                  0
                                 211 to 240                  1
                                            Total           23


Although we did not question any costs as a result of this finding, we believe this is too long of a
delay after the reporting period to effectively represent the effort expended during the period. A
timely submission of effort reports will alleviate potential mistakes due to the length of time
passed after the effort reporting period.

The University’s effort reporting policy does not specify the number of days from the end of the
effort reporting period that Annual Certification Statements must be signed and returned to the
payroll department. We believe that, without a definitive timeline to adhere to, the problem will
continue.

Recommendation No. 5

We recommend that NSF’s Director of the Division of Institution and Award Support address
and resolve the following recommendation made to UND to require the University of Chicago to
establish and implement policies and procedures ensuring effort certifications are properly
completed in a timely manner and as close to the end of the effort reporting period as possible.

Awardee Comments
The University of Chicago disagreed with the finding that its effort certifications are untimely.
The University stated that its payroll distribution (effort reporting) system produces Annual
Certification Statements after the October payroll processing. Departments have up to three
months after the original monthly payroll distribution to make an adjustment. Therefore, since
the end of the University’s fiscal year is June 30, the departments have up to September 30 to
make adjustments. These adjustments are processed in the October payroll and are distributed
the first week in November. The Certified ACSs are due back by the first full business week of
the new calendar year. Based on this procedure the University stated only 1 certification was
untimely, and that was because the individual was working in Washington, D.C. The University
went on to say that monthly payroll distributions are reviewed throughout the year. Timely
adjustments and corrections are made within three months of the original distribution.

Auditor’s Response
We disagree with the University. Based on their procedure (which is apparently not in writing) it
takes over 6 months from the end of the year to produce annual certifications of effort. The
federal regulations require timely revisions and we do not agree that 6 months after the end of
the year is timely. Our finding provided 90 days which we believe is reasonable. In addition, we

                                                32
did not find any monthly revisions to time charges during the course of the year but did find
annual changes. Accordingly, the finding and recommendation remains in the final report.

Finding No. 6 – Improvement Needed in Travel Report Policy at the University of Chicago
to Include All Travel Activity

Improvements are needed in the University of Chicago’s travel policy to ensure travel vouchers
reflect official work and conference/workshop attendance dates. A few transactions reviewed
showed university employees arriving several days before and departing several days after the
conference or workshop.

The OMB Circular A-21 § J.53.b, states that, “costs incurred by employees and officers for
travel, including costs of lodging, other subsistence, and incidental expenses, shall be considered
reasonable and allowable only to the extent such costs do not exceed charges normally allowed
by the institution in its regular operations as the result of the institution’s written travel policy.”
Additionally, NSF Award and Administration Guide §V(B).8.b states that, “to help defray the
costs of personal maintenance while participating in a conference or training activity,
participants may be paid a stipend, per diem or subsistence allowance, based on the type and
duration of the activity, as outlined in the pertinent program solicitation and in the grant.” It
further states that, “such allowances must be reasonable, in conformance with the usual policy of
the grantee organization and limited to the days of attendance at the conference plus the actual
travel time required to reach the conference location by the most direct route available.”

During our audit at the University of Chicago, we found that for a few of the travel transactions
reviewed, employees of the university arrived several days prior to conferences or workshops
and departed several days after conferences or workshops. In certain situations, it might be
necessary to arrive days before and depart days after a conference to save on airfare, but only if
the difference between the regular airfare and reduce airfare exceeds the addition meals and
lodging per diem. However, we found that employees were arriving as early as 6 days before a
conference and departing as late as 7 days after the conference, without documenting any
justification for the additional overnight stays noted on the travel vouchers.

After several inquiries, the University of Chicago provided adequate written explanations
obtained from the travelers for why each trip was extended. No costs will be questioned because
we were satisfied with the explanations. However, we believe this is still a finding because at the
time of travel the university paid the additional costs without explanation.

Recommendation No. 6:
We recommend that the NSF Director of the Division of Institution and Award Support address
and resolve the following recommendation made to the University of Notre Dame that requires
the University of Chicago, for future travel charged to NSF funded projects, amend its travel
policies to ensure that charges on travel vouchers reflect official work and conference or
workshop attendance dates and additional days traveled are adequately explained and
documented.

Awardee Comments
The University of Chicago stated in its written comments: “The University disagrees that there
any significant deficiencies in its travel policies and procedures. The University’s Financial
Policy #1202: Travel Policies and Procedures states that reimbursements provided to travelers
                                                  33
(faculty, staff, students, and guests) must be for work-related expenses (Appendix 6). The
traveler must provide a statement on the travel reimbursement request substantiating the amount,
time and business purpose of the travel expenses. It is the responsibility of the person
authorizing the travel reimbursement to obtain the knowledge necessary to attest that the travel
expense is reasonable, allocable and allowable. If a traveler’s travel dates extended beyond what
was reasonable for the trip’s business purpose, it would be the responsibility of the person
authorizing the trip’s travel expenses to ensure that unnecessary travel expenses were not
reimbursed. In the cases cited, the business purpose did not specifically address the additional
days of travel, but as the auditors noted, subsequent documentation was provided to support the
additional days of travel, lending support to the University’s contention that its policies and
procedures are effective.”

Auditor’s Response
 We disagree with the University of Chicago’s position on this issue. In the instances cited in the
finding the person responsible for authorizing the travel did not have the knowledge that the
additional days were business related when the travel expense was reimbursed. The traveler did
provide the information on the expense report. It was necessary for the University to go back
and obtain the information over 3 years after the fact because the auditors requested it. The
information of why it was necessary to travel days before and after the official conference should
have been filed with the original expense report if the University’s travel policy was followed.
Accordingly, the recommendation remains in the final report.

This report is intended solely for the information and use of the University of Notre Dame’s
Management and subawardees at the discretion of Notre Dame’s management, the National
Science Foundation, the University of Notre Dame’s cognizant federal audit agency, the Office
of Management and Budget, and the Congress of the United States and is not intended to be, and
should not be used, by anyone other than these specified parties.



Foxx & Company
Cincinnati, Ohio
February 10, 2012




                                                34
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
                                                                                                               Schedule A-1

                                               University of Notre Dame
                                                 Notre Dame, Indiana
                                 National Science Foundation Award No. PHY-0216783
                                               Schedule of Award Costs
                                           August 1, 2003 to March 31, 2011
                                                        Interim
                                            Approved           Claimed         Questioned       Schedule
                     Cost Category           Budget            Costs (A)         Costs          Reference
                Direct Costs:
                 Salaries and wages          $1,588,576        $ 1,473,641
                 Fringe benefits               223,216            261,533
                 Equipment                     707,400            178,323
                 Travel                        154,464            214,960             4,839   Note 1, Sch. B
                 Participant support           452,080            398,992             2,096   Note 2, Sch..B


                Other direct costs:
                 Materials and supplies         26,523              24,636

                 Publication costs                     -            12,635
                 Consultant services                   -          110,621
                                                                                              Note 3, Sch.B
                                                                                              and Schedule
                 Subcontracts                 6,025,876          6,054,861          125,100   C-1 and C-2
                 Other                          10,000                     -


                     Total direct costs      $9,188,135         $8,730,202         $132,035


                Indirect costs


                     Subtotal               $10,185,080         $9,818,707         $132,035




                     Total



                Cost sharing               $965,586        $      965,586      $


(A)   The total claimed costs agree with the total expenditures reported by UND on the Federal Financial Reports for the
      quarter ended March 31, 2011. Claimed costs reported above were taken directly from UND’s books of accounts.




See Accompanying Notes to Financial Schedules




                                                           35
                                                                                                 Schedule A-2

                                        University of Notre Dame
                                          Notre Dame, Indiana
                          National Science Foundation Award No. DGE-0504495
                                        Schedule of Award Costs
                                     July 15, 2005 to March 31, 2011
                                                 Interim

                                    Approved         Claimed              Questioned       Schedule
              Cost Category          Budget          Costs (A)              Costs          Reference
         Direct Costs:
           Salaries and wages         $175,856         $ 440,384
           Fringe benefits
           Equipment
           Travel                      140,000          100,282                8,955     Note 1, Sch. B

           Participant support        1,982,500        1,719,644


         Other direct costs:
           Materials and supplies      355,159             61,934

           Publication costs            15,000              2,209
           Consultant services                 -            1,320
           Subcontracts                        -                 -
           Other                       150,000                   -


              Total direct costs                                              $8,955


         Indirect costs                                                            -


              Subtotal               $3,144,381       $2,577,139              $8,955




              Total                 $ 3,144,381     $ 2,577,139               $8,955




(A)   The total claimed costs agree with the total expenditures reported by UND on the Federal Financial Reports
      for the quarter ended March 31, 2011. Claimed costs reported above were taken directly from UND’s books
      of accounts.


See Accompanying Notes to Financial Schedules




                                                      36
                                                                                                             Schedule A-3

                                            University of Notre Dame
                                              Notre Dame, Indiana
                              National Science Foundation Award No. PHY-0715396
                                            Schedule of Award Costs
                                      September 15, 2007 to March 31, 2011
                                                  Interim

                                         Approved         Claimed               Questioned       Schedule
                   Cost Category          Budget          Costs (A)               Costs          Reference
             Direct Costs:
              Salaries and wages           $390,998         $ 337,575
              Fringe benefits
              Equipment
              Travel                        148,178             101,811              5,769     Note 1, Sch. B

              Participant support          1,904,286        1,403,068               97,671     Note 2, Sch. B


             Other direct costs:
              Materials and supplies         11,936              12,279

              Publication costs               8,000                 37
              Consultant services           260,000             156,837
              Subcontracts                  699,400             369,428
              Other                         296,000                   -


                  Total direct costs                                              $103,440


             Indirect costs                                                              -


                 Subtotal                 $4,117,983       $2,680,518             $103,440
             Amendment with lump
             sum deobligation of funds     (377,983)


                  Total                  $ 3,740,000     $ 2,680,518              $103,440



   (A)   The total claimed costs agree with the total expenditures reported by UND on the Federal Financial Reports for the
         quarter ended March 31, 2011. Claimed costs reported above were taken directly from UND’s books of accounts.




See Accompanying Notes to Financial Schedules




                                                           37
                                                                                                         Schedule A-4

                                               University of Notre Dame
                                                  Notre Dame, Indiana
                                 National Science Foundation Award No. DMS-0905227
                                               Schedule of Award Costs
                                            July 15, 2009 to March 31, 2011
                                                        Interim

                                            Approved       Claimed          Questioned       Schedule
                     Cost Category           Budget        Costs (A)          Costs          Reference
                Direct Costs:
                 Salaries and wages            $81,782          $ 44,450
                 Fringe benefits                12,425            7,792
                 Equipment                             0               0
                 Travel                         18,000            8,694
                 Participant support                   0               0


                Other direct costs:
                 Materials and supplies          4,800            2,639

                 Publication costs               7,500                 0
                 Consultant services                   -               0
                 Subcontracts                          -               -
                 Other                                 0               -


                     Total direct costs       $124,507          $63,575           $ 0


                Indirect costs                                                       -


                     Subtotal                                                    $ 0




                     Total                                                        $ 0




(A)   The total claimed costs agree with the total expenditures reported by UND on the Federal Financial Reports for the
      quarter ended March 31, 2011. Claimed costs reported above were taken directly from UND’s books of accounts.




See Accompanying Notes to Financial Schedules.




                                                           38
                                                                                                             Schedule A-5

                                             University of Notre Dame
                                               Notre Dame, Indiana
                               National Science Foundation Award No. DEB-0918306
                                             Schedule of Award Costs
                                       September 1, 2009 to March 31, 2011
                                                      Interim

                                          Approved         Claimed              Questioned       Schedule
                   Cost Category           Budget          Costs (A)              Costs          Reference
              Direct Costs:
                Salaries and wages          $254,000          $ 65,780
                Fringe benefits               42,060             12,258
                Equipment                            0                 0
                Travel                        22,500               378
                Participant support                  0                 0


              Other direct costs:
                Materials and supplies        22,500             15,180

                Publication costs              3,500                   0
                Consultant services                  -                 0
                Subcontracts                         -                 -
                Other                         12,500              2,500


                   Total direct costs                                                 $ 0


              Indirect costs                                                             -


                   Subtotal                                                          $ 0




                   Total                                                              $ 0



    (A)   The total claimed costs agree with the total expenditures reported by UND on the Federal Financial Reports for the
          quarter ended March 31, 2011. Claimed costs reported above were taken directly from UND’s books of accounts.


See Accompanying Notes to Financial Schedules.




                                                            39
                                                                Schedule B
                    UNIVERSITY OF NOTRE DAME
                     NOTRE DAME, INDIANA 45556
                                AUDIT OF
                  NATIONAL SCIENCE FOUNDATION
AWARD NOs. PHY-0216783, DGE-0504495, PHY-0715396, DMS-0905227, DEB-0918306
                    Notes to the Schedules of Award Costs

Note 1:   The $19,563 questioned represents the following travel costs claimed on the following
          awards:


                                Amount       Amount
     Award        Category                                       Reason for questioning Cost
                                Claimed     Questioned
 PHY-0216783     Travel          $214,960       $4,839   Lack of documentation.
                                                         UND unable to provide documentation
 DGE-0504495     Travel          $100,282       $8,955   Lack of documentation. UND unable to locate
                                                         detail
 PHY-0715396     Travel          $101,811       $5,769   Lack of documentation.
                                                         UND unable to provide documentation
 Total                           $417,053      $19,563

          The University of Notre Dame could not locate or provide documentation supporting
          these claimed costs.

Note 2: The $99,767 questioned represents the following participant support costs claimed for
        the following awards:

                                             Amount       Amount
     Award       University    Category                                 Reason for questioning cost
                                             Claimed     Questioned
 PHY-0216783     Notre Dame   Participant   $ 398,992     $   2,096   Lack of documentation.
                              Support                                 UND unable to provide
                              Costs                                   documentation
 PHY-0715396     Notre Dame   Participant    1,403,068       97,671   Lack of documentation.
                              Support                                 UND unable to provide
                              Costs                                   documentation.
 Total                                      $1,802,060      $99,767

          Because the University of Notre Dame could not provide adequate documentation to
          support the participant support costs claimed, the $99,767 is questioned.

Note 3:   The $125,100 questioned consists of $44,300 in questioned costs claimed under
          subawards to the University of Chicago and Michigan State University under NSF
          Award No. PHY-0216783. These costs were questioned primarily for a lack of
          documentation. In addition, there is an additional $80,800 of questioned costs for
          UND moving participant support funds with MSU from the original proposal to other
          cost categories without prior written approval by NSF, as required by NSF General
          Grant Conditions (GC-1), Article 7.b. The $125,100 consisted of the following:




                                                40
                                            Amount
                      Subaward
                                           Questioned
                  UND                             $80,800
                  MSU                             $34,960
                  UC                               $9,340
                                                 $125,100

The $80,800 questioned represents UND’s subagreement with Michigan State University
as a subawardee under Award No. PHY-0216783 that had a budgeted participant support
cost category, approved by NSF in the original award was for $686,000. However, the
subaward provided to Michigan State only had a budget for participant support of
$605,200. Since the award was fully expended, the difference of $80,800 was for funds
approved for participant support by NSF used in other cost categories without prior NSF
approval. As a result, we questioned $80,800 of subaward participant support costs
claimed. The remaining questioned costs are described in detail on Schedules C-1
($34,960), C-2 ($9,340), D-1 and D-2.




                                      41
                                                                              Schedule C-1

                               University of Notre Dame
                                 Notre Dame, Indiana
                 National Science Foundation Award No. PHY-0216783
                    Michigan State University Subaward with UND
                              Schedule of Subaward Costs
                           August 1, 2003 to March 31, 2011
                                         Final


                           Approved       Claimed      Questioned     Schedule
     Cost Category          Budget        Costs (A)      Costs        Reference
Direct Costs:
                                                   $
 Salaries and wages         $1,157,265     1,339,419

 Fringe benefits              409,978       459,811
 Equipment                    228,557              -

 Travel                       198,888       285,667         1,636   Note 1, Sch D-1

 Participant support          605,200       584,580        33,324   Note 2, Sch D-1


Other direct costs:

 Materials and supplies        32,136        82,733

 Publication costs                    -            -
 Consultant services                  -       3,086
 Subcontracts                 763,472       394,342                 Note 3, Sch D-1
 Other                         25,068        56,173


     Total direct costs     $3,420,564    $3,205,811      $34,960



Indirect costs                                                  -


    Subtotal                                              $34,960
Amendments with lump
sum de-obligations of
funds



     Total                                                $34,960




                                             42
                                                                                 Schedule C-2

                               University of Notre Dame
                                 Notre Dame, Indiana
                 National Science Foundation Award No. PHY-0216783
                      University of Chicago Subaward with UND
                              Schedule of Subaward Costs
                             August 1, 2003 to July 31, 2009
                                         Final


                           Approved       Claimed         Questioned     Schedule
     Cost Category          Budget        Costs (A)         Costs        Reference
Direct Costs:
 Salaries and wages          $652,045       $ 674,250
 Fringe benefits              110,145        103,236
 Equipment                            -          5,653
 Travel                        69,020           96,118
 Participant support          306,000        156,906           9,340   Note 2, Sch D-1


Other direct costs:
 Materials and supplies        12,198           10,418

 Publication costs              3,500            7,403
 Consultant services                  -               -
 Subcontracts                         -               -
 Other                         69,493        101,748


     Total direct costs     $1,222,401     $1,155,732         $9,340


Indirect costs                                                     -


    Subtotal                                                  $9,340
Amendments with lump
sum deobligations of
funds


     Total                                                    $9,340




                                           43
                                                                                Schedule D-1

                                University of Notre Dame
                                  Notre Dame, Indiana
                  National Science Foundation Award No. PHY-0216783
                     Michigan State University Subaward with UND
                                  Notes to Schedule C-1

Note 1: The $1,636 questioned represents travel costs claimed under Michigan State’s
        subaward with the University of Notre Dame under NSF Award No. PHY-0216783.
        The $1,636 was incurred for rooms for volunteers at a participant support event.
        Because these individuals were supporting a participant event, the travel should not
        have been charged to direct travel. Accordingly, the $1,636 has been questioned as
        unallowable.

Note 2: The $33,324 questioned represents participant support costs claimed that MSU could
        not adequately support. The $33,324 consisted of the following:
                                                                                Amount
                                     Cost Category
                                                                               Questioned
                a. Unsupported Participant support                                   $13,814
                b. Equipment purchased with Participant Support funds                 19,510
                        Total                                                        $33,324

        a. The $13,814 consists of various travel costs charged to participant support for an
           individual from outside the U.S. that traveled to Lansing for several months in 2007
           and 2008. Because MSU did not provide adequate support to show what this
           individual was actually doing and how it benefitted the NSF funded award, the
           $13,814 is questioned.
        b. MSU provided documentation that showed that $16,895 of the $19,510 was
           equipment related to building a museum exhibit. It consisted of 2 projectors at
           $4,190, and 16 Detector Packages purchased for $12,705 in 2004, 2005, 2006 and
           2007. Because the items purchased were part of building the same component the
           cost of $16,895 exceeds the $5,000 threshold for equipment. Therefore, the
           $16,895 is questioned because it is considered equipment charged to participant
           support without approval from the NSF program office. The remaining $2,615 of
           the $19,510 questioned was for 100 copies of the proceedings of a workshop which
           is also questioned because there was no explanation provided for how this
           document was used or benefitted the NSF funded subaward. Accordingly, the
           $19,510 is questioned.




                                             44
                                                                                            Schedule D-2

                                    University of Notre Dame
                                      Notre Dame, Indiana
                      National Science Foundation Award No. PHY-0216783
                           University of Chicago Subaward with UND
                                      Notes to Schedule C-2


Note 1: The $9,340 questioned represents participant support costs claimed under the subaward
        with UND funded by NSF Award No. PHY-0216783. The University could not
        provide adequate documentation to support the $9,340 consisting of the following
        amounts:


                                                           Amount
Ref.       Payee                  Purpose                               Reasons for Questioned Costs
                                                           Claimed
                                                                        There was not a breakdown of the
                       Support for the “Nuclear
                                                                        $5,000 to determine what Cal Tech
 a         Cal Tech    Astrophysics:1957-2007: Beyond        $5,000
                                                                        used the $5,000 or if was expended on
                       the First 50 Years” at Cal Tech
                                                                        allowable costs.
                                                                        Stipends claimed that were not paid,
                       Mass Modeling School
 b.        Argonne                                           $1,340     unallowable costs claimed, and
                       conference 5/8-16/2007
                                                                        stipends paid to employees
                       “Nuclear Astrophysics of the                     Stipends not paid and stipends paid to
 c.        Argonne                                           $3,000
                       Cosmos 2008” 07/22-26/2008                       employees.

                       TOTAL                                $9,340

      a. The University could not provide the composition of the $5,000. Accordingly, we could
         not determine if the $5,000 was expended on allowable costs. Therefore, the $5,000 is
         questioned.

      b. The         questioned consists of           for “no shows” that never received the stipend, 3
         individuals considered employees for             and     in unallowable costs identified by
         the University.

      c. The $3,000 questioned consists of     for “no shows” of three individuals at an event
         that never received a stipend and      for 12 individuals considered employees of the
         University of Chicago, Notre Dame, and Michigan State University. In accordance with
         NSF’s GC-1 employees cannot receive stipends.




                                                      45
                                                                        Schedule E-1

NATIONAL SCIENCE FOUNDATION AWARD NOS. PHY-0216783, DGE-0504495,
              PHY-0715396, DMS-0905227, DEB-0918306
  SUMMARY SCHEDULES OF AWARDS AUDITED AND AUDIT RESULTS
                AUGUST 01, 2003 to MARCH 31, 2011

 Summary of Awards Audited

      Award Number                      Audit Period                 Award Period

       PHY-0216783                08/01/03 - 03/31/11              08/01/03 - 07/31/11
       DGE-0504495                07/15/05 - 03/31/11              07/15/05 - 06/30/11
       PHY-0715396                09/15/07 - 03/31/11              09/15/07 - 08/31/11
       DMS-0905227                07/15/09 - 03/31/11              07/15/09 - 06/30/12
       DEB-0918306                09/01/09 - 03/31/11              09/01/09 - 08/31/14

      Type of Award                               Award Description
  PHY-0216783                Joint Institute for Nuclear Astrophysics – JINA.
  Cooperative Agreement      Addressing fundamental problems posed in Nuclear
                             Astrophysics.
  DGE-0504495                Support the establishment of a new interdisciplinary
  Research                   graduate program in Global Linkages of Biology,
                             Environment and Society (GLOBES)
  PHY-0715396                Continuing grant for QuarkNet to partner high school
  Research                   science teachers and students with particle physicists
                             working on experiments.
  DMS-0905227                Study universal equations and other properties of
  ARRA – Research            Gromov-Witten Invariants and Integrable Systems.
  DEB-0918306                Study grasshoppers for LTREB Renewal: Ecosystem
  ARRA - Research            Structure and Functioning Palouse Grasslands

 Summary of Questioned and Unsupported Costs by Award

                                                              Questioned      Unsupported
     Award Number     Award Budget        Claimed Costs
                                                                Costs            Costs
  PHY-0216783             $10,185,080            $9,818,707       $132,035        $132,035
  DGE-0504495              $3,144,381            $2,577,139          $8,955         $8,955
  PHY-0715396              $3,740,000            $2,680,518       $103,440        $103,440
  DMS-0905227               $186,761                $95,362               -               -
  DEB-0918306               $449,895              $121,081                -               -
  Totals                  $17,706,117           $15,292,807       $244,430        $244,430




                                           46
Summary of Questioned Cost by Explanation

                                                                    Internal
                Condition                    Questioned                                Non-
                                                                    Control
                                            Cost Amount                              Compliance
                                                                   Weaknesses
Lack of documentation for participant
support @ UND                                         $99,767           X                  X
Participant Support charged to other
categories without NSF approval @ UND                 $80,800           X                  X
Lack of documentation for travel@UND                  $19,563           X                  X
Lack of documentation for participant
support at a subawardee (U of C)                       $9,340           X                  X
Lack of documentation for participant
support at a subawardee (MSU)                         $13,814           X                  X
Lack of documentation for travel at a
subawardee (MSU)                                       $1,636           X                  X
Unappoved equipment charged to
participant support                                   $19,510           X                  X
Total Questioned Costs                            $244,430


Summary of Internal Control Weaknesses and or Non-Compliance Issues

                               Internal
                                            Material                             Amount of NSF
                              Control and                       Significant
        Condition                           Weakness                            Claimed/ Incurred
                                 Non-                           Deficiency
                                                                                  Costs Affected
                              Compliance
Incurred Costs not
Supported by Adequate
Documentation                     X               X                                 $119,330
 Lack of Approval for
Unmet Participant Support
Costs--University of Notre
Dame                              X                                                  $80,800
Lack of documentation-to
Support Incurred Costs at
the University of Chicago         X               X                                  $9,340
Lack of Documentation
for Participant Support and
Travel Costs Claimed at
Michigan State University         X               X                                  $34,960
UND’s Monitoring of
Subawards Needs
Improvements                      X                                 X                  0
Untimeliness of Effort
Certifications at the
University of Chicago             X                                 X                  0
Improvement Needed in
Travel Report Policy at the
University of Chicago to
Include All Travel Activity       X                                 X                  0




                                             47
                          UNIVERSITY OF NOTRE DAME
                             NOTRE DAME, INDIANA
                      NOTES TO THE FINANCIAL SCHEDULES
                        From August 01, 2003 to March 31, 2011

Note 1: Summary of Significant Accounting Policies

        Accounting Basis
        The accompanying financial schedules have been prepared in conformity with National
        Science Foundation (NSF) instructions, which are based on a comprehensive basis of
        accounting other than generally accepted accounting principles. Schedules A-1 through
        A-5 have been prepared by the University of Notre Dame (UND) from the Federal
        Financial Reports (FFRs) submitted to NSF and UND’s accounting records. The basis
        of accounting utilized in preparation of these reports differs from generally accepted
        accounting principles. The following information summarizes these differences:

         A. Equity
             Under the terms of the awards, all funds not expended according to the award
             agreements and budgeted at the end of the award period are to be returned to NSF.
             Therefore, the awardee does not maintain any equity in the award and any excess
             cash received from NSF over final expenditures is due back to NSF.

         B. Inventory
             Minor materials and supplies are charged to expense during the period of
             purchase. As a result, no inventory is recognized for these items in the financial
             schedules.

         C. Equipment

             Equipment is charged to expense in the period during which it is purchased
             instead of being recognized as an asset and depreciated over its useful life. As a
             result, the expenses reflected in the Schedules of Award Costs include the cost of
             equipment purchased during the period rather than a provision for depreciation.

             Except for awards with nonstandard terms and conditions, title to equipment
             under NSF awards vests in the recipient, for use in the project or program for
             which it was acquired, as long as it is needed. The recipient may not encumber
             the property without approval of the federal awarding agency, but may use the
             equipment for its other federally sponsored activities, when it is no longer needed
             for the original project.

         D. Income Taxes

             UND is an educational institution and does not pay income taxes.




                                             48
Note 2: Indirect Cost Rates – UND, the University of Chicago and Michigan State University
        have federally approved indirect cost rates.

Note 3: The departure from generally accepted accounting principles allows NSF to properly
        monitor and track actual expenditures incurred by UND. The departure does not
        constitute a material weakness in internal controls.




                                            49
ATTACHMENT A – AWARDEE’S
  COMMENTS TO REPORT
               WRITTEN COMMENTS FROM AUDITEES



The University of Notre Dame, Michigan State University and the University of Chicago have
provided written comments to the draft audit report. We have only included the transmittal
letters and several pages accompanying the transmittal letters on the following pages. All three
universities submitted voluminous amounts of information in support of the questioned costs in
the draft report. We have summarized after each finding a summary of each university’s
comments and the auditor’s evaluation of the information provided in support of the questioned
costs. However, because of the volume of the comments, exceeding 30 megabytes of data, we
could not include everything in the final report. The entire written comments have been
provided to the NSF, Division of Institution and Award Support.




                                               50
              UNIVERSITY OF
                                         NOTRE DAME
                                  RESEARCH Sr SPONSORED PROGRAMS ACCOUNTING

836a Grace Hall
Notre Dame, Indiana
46556-5612 USA

   March 12, 2012



   Foxx and Company
   324 W. 9th Street, Suite 700
   Cincinnati, OH 45202

   RE: NSF Financial Audit

   Dear


   Enclosed please find responses, from the University of Notre Dame and our subrecipients, the
   University of Chicago and Michigan State University, regarding the draft report of the National
   Science Foundation (NSF) Financial Audit for Awards PHY-0216783, DGE-0504495, PHY-0715396,
   DMS-0905227, and DEB-0918306.

   A CD with additional documentation from Michigan State University will be sent via overnight
   delivery to your attention as the data file was too large to send in an e-mail attachment. Please do
   not hesitate to contact me with any questions you may have regarding this information. We look
   forward to working with you and the NSF in finalizing this audit.

   Regards,




   Research and Sponsored Programs Accounting

   Enclosures
   cc: (w/o enclosures)




                                                     51
University of Notre Dame
Responses to the Draft Report
for the NSF Financial Audit
March 12, 2012

Page 2

Finding No. 1— Incurred Costs not Supported by Adequate Documentation and Lack of approval for
Unmet Participant Costs
The University of Notre Dame has provided additional comments and support for the items included
in the detailed transaction list provided by Foxx. Please see Exhibit ND.1. Although some of the
documentation was either destroyed in accordance with the University retention polices or not
maintained centrally, given the nature of the awards (program activities being performed via satellite
sites), Notre Dame is confident that the charges made to the awards were allowable, reasonable,
and allocable.
Recommendation No. 1:

We recommend that the NSF Director of the Division of Institution and Award Support address and
resolve the following recommendation made to the University of Notre Dame:

    a.   develop procedure to retain documentation supporting award costs maintained by other
         departments within the university for at least three years after the close of federal awards,

         Although the University's current retention policy is structured to meet requirements for the vast
         majority of federal grants and contracts, the University will revise its current procedures to ensure
         documentation for awards with extended project periods remain available.

    b.   perform periodic reviews of its policies and procedures to ensure that procedures are
         working as designed including documenting attendance at participant support activities and
         ensuring that travel incurred on federal awards is documented,

         The University periodically reviews its policies and procedures to ensure they are
         functioning as intended and will continue this practice with a specific focus on the areas
         noted in the audit findings.

    c.   establish and implement policies and procedures to ensure that university officials obtain
         prior approval from NSF before using funds budgeted for participant support on other cost
         categories, and

         The University receives prior approval from the NSF for re-budgeting participant support
         funding before redirecting funds from this category to other cost categories. However, the
         University believes it followed proper protocol via Federal Demonstration Partnership (FDP)
         authority imparted upon them whereby, the authority for re-budgeting of funding passed down
         to a subcontractor resided with the University. Due diligence was performed by the University
         prior to allowing any re-budget to occur to ensure program goals could still be met.

    d.   provide documentation to support the questioned travel, participant support and subaward
         costs or refund the $243,060 questioned to NSF.

         See Exhibit ND.1.1-2 for additional explanation.




                                                     52
University of Notre Dame Responses to
the Draft Report for the NSF Financial

Audit March 12, 2012
Page 3

Finding No. 4 — UND's Monitoring of Subawards Needs Improvements

Recommendation No. 4


We recommend that the NSF Director of the Division of Institution and Award Support address and
resolve the following recommendation made to the University of Notre Dame that, for current and
future NSF awards, UND fully implement its existing procedures for its subawardee monitoring to
ensure that all subawardees are complying with federal requirement for all NSF funded subawards.

Based on a comprehensive review of our existing policies and procedures performed prior to the NSF
audit late in 2010 related to sub-recipient monitoring, the University began implementing as of July 1,
2011 additional sub-recipient monitoring steps to ensure that costs incurred on funds passed to other
entities are allowable, allocable and reasonable. In addition to requesting A-133 audit reports from all
sub-recipients we have initiated the following processes:

    •    Completing a formal risk-assessment for all new sub-award agreements
         The risk assessment takes into consideration factors such as dollar amount, prior A-133 audits
         and findings, high risk transaction categories, location and history of prior work with the sub-
         recipients, etc. If the sub-recipient is assessed as high-risk additional steps are taken such as
         requesting the completion of a financial questionnaire and modification of the sub-award to
         include increased transaction monitoring and reporting steps.

    •    Completion of a risk assessment for all awards and increments where activity occurred for the prior
         fiscal year
         This process enables us to assess whether the sub-recipient's financial situation has changed
         and may warrant additional monitoring procedures, even though no additional funding has been
         sent.
    •    Audits of selected transactions
         Transaction detail requests have been sent to all current high-risk sub-recipients. From the
         information received we will review and request copies of original receipts for selected transactions.
         This information will be reviewed in order to support its allowability on the award. In addition, the
         same requests have been sent to a sample of low risk sub-recipients in order to determine if sub-
         award costs are allowable on this population as well.

    •    Additional focus on high-risk cost categories
         All sub-awards with high-risk cost categories (Participant Support, equipment, travel, etc.) will
         be subject to additional monitoring of incurred costs. Transaction support will be requested on
         a periodic basis to determine if costs are appropriate. Monitoring activities will focus around
         specific requirements such as attendance records and justification for travel including
         exceptions to the fly-America requirements.




                                                      53
We believe that by fully implementing these processes we will reduce the risk of unallowable costs
on all sub-awards and be in compliance with the federal requirements surrounding sub-recipient
monitoring.




                                                 54
                                                                                                                     Exhibit N111
University of Notre Dame
NSF Financial Audit
Questioned Costs Detail and Additional Comments
March 12, 2012


                          Grant      Questioned                   Additional Comments/Documentation
      Cost Category    Description                                  ( s e e    K e y  C o d e )
                                         Amount
          Travel      PHY-0216783           3,059.54                                 A
          Travel      PHY-0216783           1,625.30                                 B
          Travel       PHY-0216783             32.33                                 A
          Travel       PHY-0216783            122.00                                 A
                                                     This expense was subsequently removed from award
          Travel      DGE-0504495           6,975.00 and is not currently considered a claimed cost to the
                                                     award,
          Travel      DGE-0504495           1,744.59                            C

          Travel      DGE-0504495            235.00                                C
                                                     Statement from the PI, in addition to original
          Travel      PHY-0715396           5,768.88 documentation, has been provided to explain the
                                                     necessity for the cost transfer. See Exhibit ND.2
                                           19,562.64


                        Grant            Questione               Additional Comments/Documentation
     Cost Category    Description                                            (see Key Code)
                                     d    Amount
        Participant                                     See Exhibit ND.3
         Support      PHY-0715396           1,042.40    .                                         -
        Participant                         1,040.00. See Exhibit NDA
         Support      PHY-0715396                                                                                    .
        Participant
         Support      PHY-0715396          24,480.00    See Exhibit ND.5

        Participant
         Support      PHY-0715396            8,900.00 See Exhibit ND.6

        Participant
         Support      PHY-0715396             500.00                                  D

        Participant                                     Supplemental funding is explained in narrative. See
                      PHY-0715396           4 ,782.80
         Support                                        Exhibit NO.7
                                                        Narrative (Exhibit ND.7) explains nature of student
                                                        research center. Annual report documents activities;
        Participant                                     email attests to attendance during research period;
                      PHY-0715396           7,840.00
         Support                                        documentation includes check requests. There are no
                                                        sign in sheets, but verifiable evidence of participation.
        Participant
         Support      PHY-0715396           8,800.00    See Exhibit ND.10

        Participant
         Su. tort     PHY-0715396           7,840.00                                  D

        Participant                                     Expenses of the national program are explained in the
         Sus tort     PHY-0715396         19, 342.61    narrative. See Exhibit ND.7
        Participant                                     Expenses of the national program are explained in the
         Support      PHY-0715396        21, 944.82
                                                        narrative. See Exhibit ND.7
        Participant   PHY-0715396           11,200.00       The shifting of approved funding from one participant
         Support                                            support category to another is explained in narrative.



                                                            55
                                                                                     Exhibit ND.1
                                                                     .   _
                   Grant      Questioned              Additional Comments/Documentation
Cost Category
                Description    Amount                             (see Key Code)

 Participant
                PHY-0715396      4,416.37    See Exhibit ND.8
  Support
 Participant
                PHY-0715396     12,080.00                                   D..
  Support
 Participant
                PHY-0715396       2,000.00                                  D
  Support
 Participant
                PHY-0216783        120.00                                   F
  Support
 Participant
                PHY-0216783         38.75                                   C
  Support
 Participant
                PHY-0216783         50.25                                   C
  Support
 Participant
                PHY-0216783         98.14                                   C
  Support
 Participant
  Support       PHY-0216783                                                 A
                                  1,239.00
 Participant
                PHY-0216783        550.00                                   A
  Support
 Participant
                PM-0715396         110.00 See Exhibit ND.3. .
  Support

                                              This travel expense was for                  attendance at
                                              the Quarknet Advisory Board meeting. Minutes of this
                                              meeting were never produced, but Quarknet PI,
 Participant
                PHY-0715396       4,282.17                  , provided slides of his presentation.
   Support
                                              A 2008 set of Advisory Board recommendations is
                                              also provided proving               is a board member.
                                              See Exhibit ND.9
                                142,697.31




                                             56
University of Notre Dame
NSF Financial Audit
Questioned Costs Key Code for Exhibit ND.1




     A     Detail not available per University retention policy.

     B     Receipts for some of these were provided but deemed as inadequate as the receipt had
           faded over time.

     C     Although the University reviewed and approved supporting documentation reflecting the
           amount, payee, date and business purpose, an itemized receipt was not available from the
           submitting employee. Based on this, we believe adequate documentation was presented to
           ensure allowability, allocability, and reasonableness of the expense on the award. The
           University will continue to stress the significance of including itemized receipts going
           forward.

     D     The University requested additional information from participation site time cards for
           teachers              and                 . Their Payroll department had previously
           retrieved the student time cards but neglected to capture the teachers. They have
           indicated they would return to storage to retrieve them; however, we have not received
           them yet.

     F     This expense resulted from a clerical error and will be removed from the award.




                                                    57
             THE UNIVERSITY OF                                                    The University of Chicago
                                                                                  Financial Services
             CHICAGO
                                                                                  6054 S. Drexel Avenue
                                                                                  Suite 300
                                                                                  Chicago, ll_ 60637-2612
March 12, 2012


Foxx and Company
324 West 9th Street, Suite 700
Cincinnati, OH 45202

Dear
Enclosed is the University of Chicago's response to the draft report dated February 15, 2012 for the audit of
the National Science Foundation Award Number PHY-0216783. We respond as a sub-recipient under this
prime award to the University of Notre Dame and to the following draft findings:

Finding No. 2: Lack of Documentation to Support Incurred Costs
Finding No. 5: Untimeliness of Effort Certifications
Finding No. 6: Improvement Needed in Travel Report Policy to Include All Travel Activity
We strongly maintain that the documentation provided for the questioned costs in Finding No. 2, both the
official documentation and the supplemental documentation gathered during the audit, fully support the
reasonableness, allocability and allowability of those costs. Further, we maintain that federal regulations do
not require "sign-in" sheets to support conference costs. The disallowance of those costs because of the
absence of such sheets is unreasonable, particularly since we provided ample evidence of attendance.

We do not agree with Finding Nos. 5 and 6 that assert there are significant deficiencies in the internal
controls of the University's effort and travel systems. Our response provides context and support for
those controls.
Please allow us the opportunity to meet with you to review the evidence that supports the questioned
costs. This meeting will include the University's Principal Investigator and other applicable University
representatives. Feel free to contact me at                                         if you have any
questions.

Sincerely,




                   , Sponsored Award Accounting

Enclosures
    (1) Audit Response
    (2) Additional Documentation

xc:                                                     The University of Chicago
                                                                      , The University of Chicago
                                       , University of Notre Dame
                                      Principal Investigator, The University of Chicago




                                                    58
National Science Foundation Award No. PHY-0216783 The
University of Chicago Subaward with Notre Dame Audit
Response and Additional Documentation (Appended)
March 12, 2012

Finding 2 – Lack of Documentation to Support Incurred Costs at the University of Chicago

Awardee Comments:

Award Purpose:
The Joint Institute for Nuclear Astrophysics (JINA) is a collaboration between the University of
Notre Dame, Michigan State University, and the University of Chicago to address a broad range
of experimental, theoretical, and observational questions in nuclear astrophysics. The intent of
the National Science Foundation's generous support of the Institute is described in the award
abstract (see Appendix 1).

JINA organizes extensive series of workshops and exchanges of visitors and students with
leading groups and institutes around the world. It is expected that University of Notre Dame, The
University of Chicago, and Michigan State University will work together and financially support
any workshops and conferences to meet the objectives of the award.

The Institute acts as a broad forum for a collaborative and synergistic approach to research and it
includes many associated institutions of higher education, including the California Institute of
Technology.

A.      Expense Documentation

The University of Chicago (University) provided the auditors the official documentation the
University required for costs selected for review. Documentation primarily included vendor
invoices and the University payment authorization form. Vendor invoices included references to
associated work orders and/or descriptions of services and goods provided. The Principal
Investigator,                  , or his authorized designee requested and approved all invoice
payments. As Principal Investigator for the award,             was in a position to determine if
invoiced expenses were appropriate in light of the services provided and if they were in support
of the NSF award's project scope.

In addition to the official transaction documentation, the University also provided supplemental
vendor documentation to the auditors as requested. The additional documentation is described
below in the individual questioned costs comments.
The University's documentation meets any reasonable interpretation of documentation required
by OMB Circulars A-21 and A-110 and the NSF Grants Policy Statement to support the
reasonableness, allocability and allowability of the questioned costs. Two decades of A-133
Audits and more than a dozen NSF award monitoring reviews and desk audits prove that
invoices, purchase orders, work orders and the University payment authorization forms are
adequate documentation for sponsored award expenditures.
Page 1 of 11


                                                      59
National Science Foundation Award No. PHY-0216783
The University of Chicago Subaward with Notre Dame
Audit Response

March 12, 2012
C.     Sign-In Sheets
The auditors' position that a minimum standard of documentation for conference costs cannot be
met without participant “sign-in sheets” is unreasonable, particularly in light of other supporting
evidence of attendance that the University provided, evidence that included:

     a)   Stipend disbursement control sheet initialed by stipend recipients
     b)   Meeting and conference agendas
     c)   Conference registration lists
     d)   Hotel registration lists and hotel guest folios
     e)   Security pass lists for conference facilities

The University maintains that for the two University hosted conferences at Argonne National
Laboratory, the stipend disbursement control sheet listed above provided the “sign-in sheet”
documentation the auditors were insisting upon. The conference participants were entitled to
receive a stipend payment and were required to initial their name on the stipend disbursement
control sheet when they received payment. Further, there is no federal regulation, policy or
procedure requiring “sign-in sheets” to support participant support costs.

Questioned Costs

D.1: Payee, Cal Tech; Purpose, Support “Nuclear Astrophysics: 1957-2007: Beyond the
First 50 Years” at Cal Tech; Amount Claimed, $5,000

Adequate expense documentation was provided to the auditors, including a list of conference
registrants provided by the Notre Dame JINA administrator.

California Institute of Technology (Cal Tech) presented Invoice #070619, dated June 19, 2007,
for $5,000 to support the above referenced conference that was scheduled for July 2007. The
official documentation the University provided to the auditors included the invoice, its payment
authorization, and an email dated July 27, 2007, from the University's award administrator to the
Payment Services Department explaining that the invoice was for support of the Cal Tech JINA
Conference. The invoice itself clearly stated the purpose as “Participant Support for the „Nuclear
Astrophysics 1957-2007: Beyond the First Fifty Years' conference being held at Cal Tech in
Pasadena, CA – July 23-27, 2007.”

When auditors requested additional documentation, the University provided the following:

     a) A memorandum, dated December 13, 2011, from                          , the prime award
        Principal Investigator, confirming that the prime had requested the University to
        support the Cal Tech conference with $5,000 of its award funds. Because the written
        memorandum was four years after the fact does not diminish the documentation that
        the University was instructed to support this conference with a $5,000 of its own award
        funds.
     b) A list of conference registrants provided by the Notre Dame JINA Administrator.




Page 2 of 11
                                                 60
National Science Foundation Award No. PHY-0216783
The University of Chicago Subaward with Notre Dame
Audit Response

March 12, 2012

D.2: Payee, Argonne National Laboratory (ANL); Purpose, “Mass Modeling School”
Conference held May 8-16, 2007; Amount Claimed, $27,318

Adequate documentation, including evidence of conference attendance, was provided to the
auditors.

In February 2007, ANL prepared a Work Project Authorization (Work Order #04494-00-139) to
provide conference services as follows:

               a)   Student lodging
               b)   Lecturer support
               c)   Student support (including meals)
               d)   Materials and supplies (including handouts)
               e)   Conference coordinator services

ANL presented the University for payment Invoice #7252007, dated July 25, 2007, for
$27,317.77. The invoice referenced the above work order. Invoice payments are authorized by the
Principal Investigator or his designee. That invoice and its payment authorization became the
official documentation for the transaction.

The University provided additional documentation that included vendor (ANL) employee time
records (something we would not expect the vendor to provide unless requested) hotel bills with
the names of individuals for whom room expense was charged and documents that could
reasonably be substituted for “sign-in sheets.”

The table below includes three columns: invoice description, amount, and additional support.
The “invoice description” and “amount” appeared on the ANL invoice. The additional support
column contains a description of the additional documentation the University gathered at the
auditors request to support the invoice.

    Invoice Description           Amount                        Additional Support
 Sodexho Lodging                   $8,623.10 Sodexho (lodging vendor) invoice, including a list
                                             of individuals housed;
                                             Individuals housed were also listed on the expected
                                             participant list that was provided.
 Effort                            $5,768.00 ANL labor schedule personnel for providing
                                              conference services, including description of
                                              work provided
 ICC Enterprises (computer         $1,155.00 ANL purchase order and vendor invoice for
 rental)                                      computers needed for the conference
 Food Services (on-site)           $2,427.86 Invoices from vendors for conference meals.
                                              [Note: When collecting information for the audit,
                                              it was discovered that unallowable charges
                                              totaling $205.40 were included in this bill. Notre
                                              Dame was refunded for these costs. See Appendix
                                              2 for the revised Schedule of Costs.]
 Driving and Rigging               $4,357.00 Hours detail for ANL personnel providing services
Page 3 of 11
                                                  61
National Science Foundation Award No. PHY-0216783
The University of Chicago Subaward with Notre Dame
Audit Response

March 12, 2012

    Invoice Description     Amount                         Additional Support
 IPD Media                                Hours detail for individuals providing photography
                                          services
 Non-Purch Order/SC                      ANL's internal request for petty cash to pay
 Services                                to each of 21 expected participants identified by
                                         the University; ANL's petty cash request listed the
                                         individuals who were to receive the payment. The
                                         list was later used as a stipend disbursement and
                                         receipt control sheet. When individuals received
                                         their stipend, they initialed their name as it
                                         appeared on the control sheet.

                                         The copy of the ANL internal request for petty
                                         cash was originally provided to the auditors
                                         without initials from the participants. The purpose
                                         of providing this document was to provide
                                         additional support for the purpose of the
                                                     invoice item, showing the auditors the
                                         list of individuals that were to receive the stipend.

                                         As the auditors continued to request “sign-in
                                         sheets” and additional supporting documentation
                                         for invoice payments, the University pursued
                                         ANL to provide documentation of the
                                         participants' actual receipt of their stipend
                                         payments. In December 2011, ANL was able to
                                         provide a copy of the request for petty cash that
                                         had the stipend recipients initialed when they
                                         received their       stipend. Many of these
                                         participants utilized housing and are listed on the
                                         above mentioned Sodexho invoice detail.

                                       During the course of the audit, it was discovered
                                       that ANL incorrectly invoiced the University $400
                                       for two participants who did not receive a stipend.
                                       The University refunded the $400 to Notre Dame.
                                       See Appendix 2 for the revised Schedule of Costs.
 Food services (off-site)              Receipts for meals with speakers;
                                       These costs were determined to be unallowable
                                       participant support costs and Notre Dame was
                                       refunded for these costs. See Appendix 2 for the
                                       revised Schedule of Costs.
 Total invoice              $27,317.77 Conference agenda and Principal Investigator and
                                        vendor responses to the auditor's detailed list of
                                        questions received on December 9, 2011


Page 4 of 11
                                            62
National Science Foundation Award No. PHY-0216783
The University of Chicago Subaward with Notre Dame
Audit Response

March 12, 2012

D.3: Payee, Notre Dame; Purpose, “Frontiers Conference,” held Aug 19-21, 2007;
Amount Claimed, $18,509

Adequate documentation, including evidence of conference attendance, was provided to the
auditors.

Notre Dame presented to the University for payment Invoice #41556A, dated November 6, 2007,
for $18,509. The invoice was for the University's designated share of expenses associated with
the above-referenced conference. Invoice payments are authorized by the Principal Investigator or
his designee. That invoice and its payment authorization became the official documentation for
the transaction.

The table below shows the information that appeared on the invoice and the additional support
the University collected at the request of the auditors.

      Invoice Description            Amount                      Additional Support
 Photocopies                             $48.20

 Morris Inn Lodging                      $7,514.73 List of 33 conference registrants that Notre
                                                   Dame expected would need lodging
                                                   accommodations;
                                                   The final number of accommodations that
                                                   were needed was 20. Copies of hotel folios
                                                   for the 20 were given to the auditors.
 Reception Refreshments                  $2,088.09 Vendor invoice itemizing charges
 Refreshments 8/20                       $1,112.00 Vendor invoice itemizing charges
 Refreshments 8/21                         $972.50 Vendor invoice itemizing charges
 Luncheon 8/20                           $1,586.23 Vendor invoice itemizing charges
 Luncheon 8/21                           $1,418.27 Vendor invoice itemizing charges
 Dinner 8/20                             $1,984.03 Vendor invoice itemizing charges
  Center administration and              $1,785.00 Email dated December 5, 2011
   coordination fees ($7 x 3                       explaining Notre Dame's $7 rate
  days x 85 actual attendees)
 Total invoice                          $18,509.05 List of 84 expected registrants from
                                                   Notre Dame (Appendix 3) to support the
                                                   meal expenses and fees




Page 5 of 11
                                               63
National Science Foundation Award No. PHY-0216783
The University of Chicago Subaward with Notre Dame
Audit Response

March 12, 2012

D.4: Payee, Argonne; Purpose, “Nuclear Astrophysics of the Cosmos 2008”, July 22-26,
2008; Amount Claimed $39,135

Adequate documentation, including evidence of conference attendance, was provided to the
auditors.

In April 2008, ANL prepared a Work Project Authorization (Work Order #04546-00-439) to
provide conference services as follows:

               a)   Student lodging
               b)   Lecturer support
               c)   Student support (including meals)
               d)   Materials and supplies (including handouts)
               e)   Conference coordinator services
               f)   Transportation to the Nuclear Astrophysics of the Cosmos symposium

ANL submitted three invoices for payment. Invoice payments are authorized by the Principal
Investigator or his designee. The invoices and their payment authorization became the official
documentation record for the expense.

D.4.1: Invoice Date and Number, 9/8/2008, 0454C1139: Amount claimed: $21,891 of
$27,087

This ANL invoice was the first of three for conference expenses. ANL invoiced for conference
services and fees, conference meals, airfare, and media charges. The official documentation
provided to the auditors included the invoice (with item descriptions and amounts as show in the
below table) and its payment authorization. The invoice detail shown in the table below was
derived from ANL expense ledgers that provided the detail for the $21,891 of invoiced expenses.
Additional supporting documentation provided to the auditors is also described in the below table.

         Item Description                  Amount                 Additional Support
 Services provided by ANL                    $10,304.00 ANL labor schedule for personnel
 personnel                                              expenses and an explanation of how
                                                        amount was derived based on hours
                                                        worked
 Airfare for three speakers                   $3,809.42 Flight itineraries and receipts for
                                                        speakers listed on conference agenda
 Cafeteria charges                            $6,354.20 Original cafeteria request for each
                                                        day of the conference; detailed
                                                        invoice for each of the meals for
                                                        each conference day (7/22-7/26)
 Driving and rigging services                 $4,250.21 Hours detail for individuals
                                                        providing these services for
                                                        transporting attendees and
                                                        conference equipment to/from
                                                        ANL locations; bus schedule for
                                                        conference
Page 6 of 11
                                                 64
National Science Foundation Award No. PHY-0216783
The University of Chicago Subaward with Notre Dame
Audit Response

March 12, 2012

        Item Description                  Amount                 Additional Support
 Media services                               $773.60 Hours detail for individuals
                                                      providing photography and printing
                                                      services
 Stipend payment refunds                              Stipend disbursement control sheet
                                                      that was initialed by participants
                                                      receiving stipend payments;
                                                      This sheet was marked with three “no-
                                                      shows”             ) providing the detail
                                                      for this refund.

                                                         Invoice number 0454C1139-03
                                                         (D.4.3 below) included the original
                                                         request of $9,600 for the expected 48
                                                         participants. [Note: ANL invoiced
                                                         the stipend transactions out of
                                                         sequence: the refund was invoiced
                                                         first while the expected $9,600 total
                                                         stipend expense appeared on the
                                                         third invoice.]
 ANL contribution                               ($3,000) ANL's expected funding
                                                          contribution to the conference
                                                          as shown on the work-order
 Total invoice                                $21,891.43 Conference agenda, initial list of
                                                          conference applicants, Principal
                                                          Investigator and vendor responses
                                                          to the auditor's detailed list of
                                                          questions received on December 9,
                                                          2011

This invoice did not claim the $9,600 cash stipend expense noted by the auditors in their draft
audit findings. ANL invoiced that expense to the University in their March 31, 2009, invoice
number 0454C1139-03 (D.4.3 below).




Page 7 of 11
                                                65
National Science Foundation Award No. PHY-0216783
The University of Chicago Subaward with Notre Dame
Audit Response

March 12, 2012

D.4.2: Invoice Date and Number, 11/21/2008, 0454C1139-02; Amount claimed: $15,423

This invoice was for the conference's housing costs. The official documentation provided to the
auditors included the invoice and its payment authorization.

The auditors were provided a list of the 29 individuals who were housed and a lodging folio for each.
Additional documentation provided included Sodexho's invoice to ANL for lodging, which listed
conference speakers and registrants, and ANL's payment request for the Sodexho invoice.

Attached is additional evidence of conference attendance. Appendix 4 includes hotel registration
cards signed by each participant utilizing housing for the conference and Appendix 5 contains a
list of gate passes issued to conference participants entering the secured Argonne National
Laboratory Campus.


D.4.3: Invoice Date and Number, 3/31/2009, 0454C1139-03; Amount claimed: $1,821 of
$14,722

This was the final conference invoice. The University provided the auditors with the official
documentation for the transaction that included the invoice and its payment authorization
representing the remaining balance of expenses for the conference. As shown in the table below,
the auditors were provided a schedule of costs by category for the services that were being
invoiced. Also appearing in the table below is a description of additional supporting
documentation that was provided to the auditors. Note that for stipend expenses, cash receipts
were provided in the form of an initialed stipend disbursement control sheet.

         Cost Category                     Amount                       Additional Support
 Ground Transportation                        $2,141.80        Invoice and description of
                                                               services from Pontarelli Group
                                                               Charter for livery service to next
                                                               JINA conference starting July 27;
                                                               December 13, 2011 memo from
                                                               prime recipient, Notre Dame, to
                                                               confirm that UC was asked to
                                                               provide this transportation

 Speaker Honorariums                                  $2,000   ANL Honorarium Vouchers for 4
                                                               speakers listed on conference agenda
 Speaker Travel Expenses                        $1,087.67      Expense reports and supporting
                                                               documentation (including receipts)
                                                               for speaker travel expenses
 Stipends                                             $9,600   ANL internal request for petty cash
                                                               to pay $200 to 48 expected
                                                               participants identified by the
                                                               University. ANL's petty cash
                                                               request listed the individuals who
                                                               were to receive the payment. The
Page 8 of 11
                                                 66
National Science Foundation Award No. PHY-0216783
The University of Chicago Subaward with Notre Dame
Audit Response

March 12, 2012

           Cost Category                    Amount                      Additional Support
                                                              list was later used as a stipend
                                                              disbursement control sheet. When
                                                              individuals received their stipend,
                                                              they initialed their name as it
                                                              appeared on the control sheet.

                                                              [Note: ANL did credit the
                                                              University for       in stipends that
                                                              were not distributed to three
                                                              individuals who did not attend the
                                                              conference. This credit is reflected
                                                              on invoice number 0454C1139
                                                              (D.4.1 above)]
 Effort Adjustment                                  ($107)
 Total invoice                                  $14,722.47    Principal Investigator and vendor
                                                              responses to the auditors' detailed
                                                              list of questions received on
                                                              December 9, 2011


D.5: Payee, Fairfield Inn; Purpose, JINA Advisory Committee Meeting, 3/24/2006;
Amount claimed, $3,750

The University paid the hotel deposit for a block of rooms housing out-of-town advisory
committee members scheduled to attend the March 2006 meeting. The $3,750 deposit was a
requirement under a hotel contract. The official documentation for the expense provided to the
auditors was the hotel contract and the University payment authorization.

Additional documentation provided to the auditors included the final hotel invoice for the actual
nights stayed, a list of individuals scheduled to attend the meeting, and a hotel provided list of
individual reservations that tied to the number of nights referenced on the invoice.

Finding No. 5 – Untimeliness of Effort Certifications at the University of Chicago

The University disagrees that its effort certifications are untimely.

The University's fiscal year ends June 30. Its payroll distribution (effort reporting) system
produces Annual Certification Statements (ACS) after the October payroll processing. The
October processing date is because departments have until three months after an original monthly
payroll distribution to make an adjustment. Therefore, payroll distribution adjustments for June
can be submitted through September 30. June adjustments submitted after the September payroll
accounting, which takes place in mid-September, are processed in the October payroll accounting.
After the October payroll accounting is completed, the ACSs for the previous fiscal year are
produced and distributed during the first week of November. Certified ACSs are due back by
Friday of the first full business week of the new calendar year. Based upon the ACS

Page 9 of 11
                                                  67
National Science Foundation Award No. PHY-0216783 The
University of Chicago Subaward with Notre Dame Audit
Response
March 12, 2012

timeline, ACSs reviewed by the auditors were returned within the following days of their
distribution:

                        Days after October 31         Number of ACSs
                                  1 to 30                    11
                                 31 to 61                    11
                                 62 to 92                    0
                                 93 to 103                   1

The one ACS that was returned 103 days after the end of October was for a faculty member who was
working away from campus in Washington D.C.

Monthly payroll distributions are reviewed throughout the year. Timely adjustments and corrections
are made within three months of the original distribution. Adjustments not made within three months
must be accompanied by an explanation as to why the adjustment is tardy.

All of the award's ACSs, with one exception explained above, were returned timely. In addition, there
was no indication by the auditors that any of the award's payroll distribution adjustments were untimely.

Finding No. 6 – Improvement Needed in Travel Report Policy at the University of Chicago to
Include All Travel Activity

The University disagrees that there any significant deficiencies in its travel policies and
procedures.

The University's Financial Policy #1202: Travel Policies and Procedures states that reimbursements
provided to travelers (faculty, staff, students, and guests) must be for work-related expenses only
(Appendix 6). The traveler must provide a statement on the travel reimbursement request substantiating
the amount, time and business purpose of the travel expenses. It is the responsibility of the person
authorizing the travel reimbursement to obtain the knowledge necessary to attest that the travel expense
is reasonable, allocable and allowable. If a traveler's travel dates extended beyond what was reasonable
for the trip's business purpose, it would be the responsibility of the person authorizing the trip's travel
expenses to ensure that unnecessary travel expenses were not reimbursed.

In the cases cited, the business purpose did not specifically address the additional days of travel, but as
the auditors noted, subsequent documentation was provided to support the additional days of travel,
lending support to the University's contention that its policies and procedures are effective.




    Page 10 of 11
                                                      68
                                  MICHIGAN STATE
                                  UNIVERSITY March

                                  8, 2012

                                  University of Notre Dame
                                  Attn:
                                  Research and Sponsored Programs Accounting
                                  830 Grace Hall
                                  Notre Dame, IN 46556

                                  RE: Foxx and Company Draft Audit Report, NSF Prime Award PHY-0216783-006,
                                  Subaward No. 200372

                                  Dear               ,

                                  Attached is a point-by-point response to the draft audit report received February 15,
                                  2012 from,Foxx and Company, related to NSF prime award PHY-0216783-006 and
                                  MSU Subaward No. 200372.

                                  MSU believes that reasonable documentation has been provided to Foxx and Company


                 S                for all items listed in the draft audit report. As you know, MSU has a long and successful
                                  history of working with NSF and Notre Dame, and we believe you will agree that the
                                  items listed in the draft report did in fact benefit the project and are therefore,
                                  appropriately charged to the project.

                                  MSU takes pride in our record of never having had a material financial audit
          OFFICE OF               disallowance. Although the draft audit report from Foxx & Company states that MSU
  ONTRACT AND GRANT               has internal control weaknesses, MSU has consistently received A-133 annual audit
     ADMINISTRATION
                                  reports without deficiencies in internal control. MSU expended approximately $280M in
  Michigan State University       federal grants and contracts in 2011, of which approximately 28% were from NSF.
301 Administration Building       Given the size of our research enterprise, we trust that you can appreciate our
   East Lansing, Michigan
               48824-1046         reluctance to change procedures without reasonable statistical evidence of an internal
                                  control problem.
   PH:

                     web          If you or members of your staff have additional questions or require additional
          www.cga.msu.edu         information, please contact me at                                       , Assistant
                                  Director, Contract & Grant Administration at               .


                                                                 ncerely,




                                                                 and

  MSU is en affirmative-action,
   equal-opportunity employer


                                                                             69
Point-by-point response to the draft audit report issued by Foxx & Company related to costs
claimed under the University of Notre Dame Subaward No. 200372 under NSF Award No. PHY-
0216783.

MSU believes that adequate documentation was provided for costs claimed but Foxx &
Company listed those costs as unsupported or unallowable, totaling $198,020.19. Although the
draft report did not include the detailed transaction list of which costs are being questioned, the
detailed transaction list was subsequently provided by Notre Dame and is incorporated in this
response as Exhibit MSU.1. MSU has included both support documentation that was previously
submitted to Foxx & Company, and additional support documentation for all costs identified in
the detailed transaction list. Foxx & Company's draft audit report references NSF Award and
Administration Guide Section V (B).8.b. and NSF Grant Policy Manual 618.1 (b). MSU has
provided evidence to demonstrate that expenses were reasonable and consistent with these
guidelines as well as MSU's business practices, as identified in MSU's Manual of Business
Procedures. Further, MSU has provided substantial evidence to support that the costs identified
by Foxx & Company as unallowable alcoholic beverages were not for alcoholic beverages and
that any alcohol was charged to an internal, unrestricted MSU departmental account.

MSU believes that the documentation provided hereto further supports that the transactions
identified by Foxx and Company were allowable, reasonable, and allocable to the participant
support costs and travel costs, appropriate MSU business procedures were followed and that
applicable NSF rules and regulations were observed.

Item A: Lack of Documentation for Participant Support Costs

MSU Response: Please see Exhibit MSU.A.1.0 for a summary of support documentation
included which relates to the participant support costs identified in the detailed transaction list.
Foxx & Company has noted in their draft report that MSU was unable to provide participant lists
as support documentation for expenses. However, MSU was able to provide participant lists for
all conferences and workshops to Foxx & Company; the participant lists are again provided as
part of the support documentation. Foxx & Company has noted that sign-in sheets are required
documentation to support evidence of participation and attendance of conference events. MSU
acknowledges that using sign-in sheets is an accepted practice for documenting attendance
however there are no written Federal requirements that require sign-in sheets as the only
acceptable form of documentation of attendance. As noted in the Government Auditing
Standards (htto://www.oao.00v/assets/590/587281.pdf), section titled "Obtaining Sufficient,
Appropriate Evidence", part 6.58 "In assessing evidence, auditors should evaluate whether
evidence taken as a whole is sufficient and appropriate for addressing the audit objectives and
supporting findings and conclusions." MSU has an operational procedure, documented in our
Manual of Business Procedures and incorporated by reference throughout the Exhibits, which
was used to ensure that all charges for travel and participant support costs were allowable,
allocable, and in support of the project objectives. In assessing evidence of attendance, the
support documentation provided, taken as a whole, is viewed by MSU as sufficient and
appropriate to support the questioned costs identified by Foxx & Company in the amount of
$147,780.37.




                                                 70
Item B: Purchase of equipment with Participant Support Funds without prior NSF approval

MSU Response: The Federal definition of equipment, as defined in OMB Circular A-21 Sec J,
18 (a) (2) and incorporated by reference as part of NSF Award No. PHY-0216783 and Subaward
No. 200372 is as follows: "Equipment means an article of nonexpendable, tangible personal
property having a useful life of more than one year and an acquisition cost which equals or
exceeds the lesser of the capitalization level established by the institution for financial statement
purposes, or $5000". The definition of equipment according to OMB Circular A-110 Subpart A,
Sec 2 (I), also incorporated by reference as part of the NSF Award and Subaward states:
"Equipment means tangible nonexpendable personal property including exempt property
charged directly to the award having a useful life of more than one year and an acquisition cost
of $5000 or more per unit."

Further, the NSF Grant Policy Manual, part 612.2:
(http://www.nsf.gov/pubs/manuals/gpm05_131/gpm6lsp#612.2) which applies to all NSF grants
or amendments thereto, define equipment as that which is represented in OMB Circulars A-110
and A-21. All six (6) transactions identified as "equipment" in the detailed transactions list fail to
meet the Federal definition of equipment. One of the costs questioned by Foxx & Company as
equipment was actually a printing expense for necessary workshop materials, Please see Exhibit
MSU.B.1 for a summary of support documentation included for the expenses identified in the
detailed transactions list as equipment as well as a memo from Notre Dame for these expenses
in support of the outreach program.

Item C: Unallowable costs claimed as part of Participant Support Costs

MSU Response: Please see Exhibit MSU.C.1.0 for a summary of support documentation
included as support that alcoholic beverages were not included as part of the invoice to Notre
Dame but rather that the term was simply standard wording by the catering company, who
confirmed that the expense was for cups and supplies needed for soda and water. Further,
MSU has provided the documentation that supports that alcohol was charged to an internal,
unrestricted MSU departmental account.

Item D: Early arrivals and late departures at conferences and workshops

MSU Response: Please see Exhibit MS11111 for a summary of support documentation
included for the early arrivals and late departures. MSU has a travel policy in place to ensure
that Federal as well as University funds are used prudently and spent effectively in support of
project objectives. Some participants that stayed extra nights were part of the JINA projects
collaboration efforts for future JINA related work, The amount that was subsequently charged
to the Notre Dame - MSU Subaward as a result of the extra nights to participate on project
related objectives is significantly less than the amount that would have been charged had the
participants returned on a separate roundtrip airfare to assist the JINA collaborators. In some
cases, the extra night was to ensure that necessary international participants were able to
attend the workshops as it is widely understood that including a Saturday night stay as part of
travel greatly reduces the cost of airfare.




                                                 71
Item E: Travel costs unsupported

MSU Response: Please see Exhibit MSU.E.1 for a summary of support documentation
included for proof of payment to travelers and travel agents_ MSU acknowledges that
cancelled checks are an accepted practice for documenting payment however there are no
written Federal requirements that identify cancelled checks as the only acceptable form of
documentation of payment, nor that checks are the only acceptable form of payment. MSU has
an operational procedure, which was used to ensure that the payments to travelers, travel
agents and vendors were processed and received by the recipients in the form of direct
deposits, checks, wires, and automatic payments. The operational procedure for reserving
travel includes having a corporate credit card for airfare expenses that is charged directly by
the travel agency and is paid monthly by way of automatic payment deduction from MSU's
bank account. Therefore, on a monthly basis, statements are received by MSU's Travel Office
and reconciled to all travel flights reserved during the month. Similar to standard credit cards,
once an expense has been charged to the travel corporate credit card, payment is issued to
the travel agency for the travel expense. Payments are made to the corporate credit card by
way of an automatic monthly deduction from MSU's bank account. Foxx & Company has
calculated the amount of $1,636.00 for room charges of non-MSU employees. This amount is
incorrect: the actual cost for the nonMSU employee room charges in question was $1,517.20
and is detailed as part of the support documentation. These rooms were for volunteers that
were necessary for the success of the conference as described in the PI letter of justification,
included as Exhibit MSU.E.2. In assessing evidence of payment and allowability, the support
documentation provided, taken as a whole, is viewed by MSU as sufficient and appropriate to
support the questioned costs identified by Foxx & Company in the amount of $29,758.88.




                                               72
ATTACHMENT B – STATUS OF PRIOR
      REVIEW FINDINGS
                                                                              ATTACHMENT B


STATUS OF PRIOR REVIEW FINDINGS

A previous NSF 2006 Desk Review, a NSF 2009 Site Visit, and the FYs 2006 and 2007 OMB
Circular A-133 audit reports identified concerns. We performed procedures to determine
whether these issues had been resolved.

NSF’s 2006 Desk Review and 2009 site visit.

As a result of NSF’s 2006 desk review and 2009 site visit, NSF recommended that UND develop
policies and procedures for the preparation, submission, and reconciliation of the Federal
Financial Report. According to the 2009 site visit report, UND had implemented all the
recommended measures that were identified by the desk review conducted in October 2006.
Also, the site visit noted that UND had revised its policies for determining the allowability,
allocability, and reasonableness of expenditures charged to NSF awards. However, the site visit
team did not perform any transaction testing to determine the effectiveness of the changes to the
Allowibility of Costs policy and the Time and Effort Reporting policy. During our review we
did not find any problems with the Time and Effort reporting for the selections we made for our
audit.

OMB Circular A-133 Audit

The FYs 2006 and 2007 OMB Circular A-133 audit reports for the University of Notre Dame
identified significant deficiencies in internal control over financial and grant management.
Specifically, the audits disclosed repeated internal control findings with payroll controls and cost
transfers. The A-133 auditors found instances where UND did not have documentation to
support the labor charges to federal grants or proper approval for the expenditures. Also, there
were instances of untimely and unsupported cost transfers. However, according to the FY 2008
Single Audit these issues were resolved. Also, there were no findings reported in the FY 2009
and 2010 Single Audit reports. In addition, our audit of transactions did not find these problems
present.




                                                73
ATTACHMENT C – EXIT CONFERENCE
                                                                          ATTACHMENT C


EXIT CONFERENCE


We conducted a field exit conference on November 17, 2011 with UND. We discussed
preliminary findings and recommendations noted during the audit. Representing UND were:

            Name                                            Title
 Ms.                           Assistant Controller Research Sponsored Programs Accounting
 Mr.                           Assistant Director Research Sponsored Programs Accounting




Representing the National Science Foundation – Office of Inspector General was:

          Name                           Title

                           Audit Manager


Representing Foxx & Company were:

          Name                           Title

                           Partner
                           Manager
                           Senior Auditor
                           Senior Auditor




                                              74
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.oig.nsf.gov

           Email Hotline
           oig@nsf.gov

             Telephone
           703-292-7100



             Toll-free
          1-800-428-2189


               Fax
           703-292-9158


                 Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230




                 75
